<html>
<title> - THE FOREST SERVICE RECREATION FEE DEMONSTRATION PROGRAM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
        THE FOREST SERVICE RECREATION FEE DEMONSTRATION PROGRAM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 17, 2003

                               __________

                           Serial No. 108-57

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-400              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 17, 2003....................     1

Statement of Members:
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California..............................................     2
        Prepared statement of....................................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Funkhouser, Robert, President, Western Slope No-Fee Coalition    25
        Prepared statement of....................................    27
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office.............................    11
        Prepared statement of....................................    12
    Holtz, Patrick J., Esq., Senior Legislative Assistant of 
      Government Relations, American Motorcyclist Association....    32
        Prepared statement of....................................    33
    Jones, Raquel, Small Business Owner, Lytle Creek, California.    35
        Prepared statement of....................................    37
    Robertson, Jason D., Access and National Policy Director, 
      American Whitewater........................................    17
        Prepared statement of....................................    19
    Thompson, Tom, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................     5
        Prepared statement of....................................     7


 OVERSIGHT HEARING ON THE FOREST SERVICE RECREATION FEE DEMONSTRATION 
                                PROGRAM

                              ----------                              


                     Wednesday, September 17, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McInnis, Tancredo, Rehberg, 
Pearce, Walden, Inslee, Capps, Mark Udall, and McCollum.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. The Committee will come to order.
    For everybody's convenience, I would remind you, no 
cellular phones or anything that makes noise out there, we 
would appreciate you shutting them off.
    Second of all, because of the time limitations this 
afternoon, we will have a series of votes, and the first series 
is to begin anytime between now and 2:30. We are going to get 
as far along as we can. I am only going to allow one opening 
statement, that of our guest Mrs. Capps. I will go ahead and 
reserve mine, either enter it in the record or do it at the 
end.
    My key here is to try and get your testimony into the 
record, so as you will note, we have put you all on what we 
call a panel. We were going to have two separate panels, but in 
consideration and appreciation of what you have done to make 
the effort to come here, we are going to try and do that to get 
all of you on record. But I need your cooperation as well, and 
what I mean by that is you will each be given 5 minutes to 
present your comments. I ask you to stay within that time limit 
as a courtesy to the other members of your panel so that they, 
too, can present their testimony.
    Be advised that it is not unusual that attendance is light, 
especially on a day like this where we have substantial debate 
going on on the Floor and a number of other different things. 
The key part is the record. That is what people look at, and 
that is what will be referred to in further discussions on the 
issue at hand.
    [The prepared statement of Mr. McInnis follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
               Subcommittee on Forests and Forest Health

    Today, the Subcommittee will review the implementation of the 
Forest Service Recreation Fee Demonstration Program. The goal of the 
hearing is simple--to take a hard look at the Forest Service's handling 
of this trial program in order to inform this Committee's future 
deliberations about whether the Forest Service program should be 
extended, modified or ended.
    It is no secret to our witnesses here today that the Forest Service 
Fee program has been a lightning rod of controversy since its 
inception. While a solid consensus of support has developed around the 
Park Service's user-pays-program, considerable controversy still 
shrouds that of the Forest Service.
    The reasons for that are many. Some are legitimate, others not. 
Today we will explore all of them. Toward that end, we have pulled 
together a panel representing the full gamut of public sentiment about 
Forest Service Rec Fee Demo--we have proponents, opponents, and those 
who support the program in concept, but have overriding concerns about 
the agency's implementation of it.
    For my part, I fall in the camp of the latter. I have made it no 
secret over the years that I support the user pays concept, provided 
the fee is reasonable and provided that it is collected only in certain 
developed and/or high use areas. The Forest Service and other land 
management agencies have enormous financial needs, particularly in the 
maintenance backlog department, which appropriated dollars just aren't 
meeting. That is unfortunate, but it is reality. Given this acute need, 
it is only fair that forest users help partially defray some of the 
additional costs associated with their use. Today we will hear from a 
couple of the many user groups who share that point of view.
    At the same time, however, I have fundamental reservations about 
the Forest Service's implementation of the program to date--
reservations that leave the future status of the Forest Service Fee 
program in doubt in my mind. I am concerned that, unlike the Park 
Service, the Forest Service has done little to ensure that fee revenues 
are spent as a first priority on paying down that mammoth recreation 
maintenance backlog. I am troubled that the Forest Service appears to 
be spending between $15 million and $20 million of fee-generated and 
appropriated dollars administering a program which brings in only about 
$35 million a year. This raises the question of whether or not the 
financial ``value added'' is really worth all of the program's 
considerable controversy. And I am troubled that, according to the 
General Accounting Office who we'll here from momentarily, the Forest 
Service does not accurately account for all of the collection costs 
associated with the program.
    As a matter of good government, the Forest Service Fee Demo program 
is falling short. Whether or not these problems are reversible is 
something I look forward to discussing with our witnesses today and 
with Chairman Pombo and the other Members of this Committee over the 
coming months as we weigh the future of this program.
                                 ______
                                 
    Mr. McInnis. So, with that, I will go ahead and turn it 
over to Mrs. Capps. Welcome, and you may proceed.

STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman. And should I mention, 
if I could add an informal note, we travel together often back 
here early in the morning from Denver on. I start out in Santa 
Barbara. I mention that by way of acknowledging that I am a 
Member of Congress from the 23rd Congressional District, and 
Los Padres National Forest is in our back yard and surrounding 
the area. It is a large forest and part of this demonstration 
project. So I was very honored to be allowed and invited to 
participate in today's hearing. I thank all of the witnesses 
for being here as well.
    I do have a full statement that will be submitted for the 
record, and I just will summarize my remarks, mindful of the 
time.
    Six years ago, Congress authorized without a public hearing 
or debate the Recreational Fee Demonstration Program. The 
program attempted to address the growing backlog of overdue 
maintenance in our National Parks and forests. While this user 
fee program was well intended, my constituents and citizens in 
many parts of our country have really spoken loudly and clearly 
against its adoption in our National Forests. We all want our 
public lands to stay in good condition for future generations, 
and having the necessary funding to maintain them today is 
absolutely critical.
    The question is whether or not the Rec Fee Demo Program in 
our National Forests is the right way to generate that funding. 
I do not believe that it is. This program has a spotty track 
record and raises serious questions about fairness, about 
public access, and about industry subsidies. American families 
already pay taxes to maintain their National Parks and their 
forests. The fee demo means that when they use the forest, they 
pay twice--once through income taxes and again when they 
purchase a pass.
    For low-income individuals and families who have to watch 
every penny, the cost of a pass, even as low-cost as it is, 
this cost may keep them from accessing their forest. 
Furthermore, current law and Forest Service policy subsidize 
corporate users of our forests for activities like road 
construction so that they can log in our National Forests.
    I have introduced legislation in the past that would end 
the subsidies to timber companies that reduce funding for our 
National Forests. My bill would end the program but ensure that 
the Forest Service has enough funding to preserve and protect 
these precious lands.
    It is unfair, I believe, to ask taxpayers to pay in order 
to hike, picnic, park, or simply get out of their car to see a 
sunset in our National Forests while large corporations 
continue to be subsidized.
    A recent program by the GAO found many faults with the 
Forest Service fee demo program. For example, the Forest 
Service spends at least $1 for every dollar it collects just to 
manage the program. The Forest Service reported gross fee demo 
revenue for Fiscal Year 2001 is $35 million. After subtracting 
the reported cost of collection, appropriated funds to support 
the program, and other user fees, the Forest Service generated 
a total net increase in fee revenues of a mere $15 million, or 
about the same amount as required to collect the funds. And 
while the Forest Service has pointed to backlog maintenance as 
justification for the program, the GAO reports that the agency 
does not know how large the backlog really is.
    By contrast, the Park Service reported gross revenues of 
$126 million. Of that amount, $30 million was spent on 
administration and collection, leaving a net revenue of $96 
million to address their maintenance backlog.
    Given this record, Congress may want to consider making the 
program permanent in the Park Service, but clearly the Forest 
Service program does not work as intended and should be ended.
    As you know, current authorization for the RFDP does not 
expire until September 30, 2004. Like you, I believe that any 
profound policy changes to this program, including extensions, 
should not be done through the appropriations process. Clearly, 
there is adequate time to address this program through the 
regular authorizing process. And so I look forward to working 
with you to enact such legislation.
    Thank you again for holding this hearing, and I yield 
back--well, I turn back the podium to you.
    [The prepared statement of Mrs. Capps follows:]

  Statement of The Honorable Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you for holding this hearing.
    Six years ago, Congress authorized, without public hearing or 
debate, the Recreational Fee Demonstration program, which allows a 
variety of so-called ``user-fees'' to be assessed on visitors to some 
of our national forests and parks.
    In my local national forest--the Los Padres National Forest--the 
program is known as the Adventure Pass.
    At best it has turned into an unpleasant ``adventure'' for people 
who visit the forest, whether to hike with friends, enjoy the solitude 
the forest provides, have a picnic with the family or park on any road 
within the forest.
    While this user fee program was well intended, my constituents--and 
citizens in many parts of the country--have spoken loudly and clearly 
against it. Groups as diverse as Free Our Forests, Keep Sespe Wild, the 
Sierra Club, and several sportsmen and recreation associations are 
firmly united in their opposition to the program.
    The Recreation Fee Demonstration Program was an attempt to address 
the growing backlog of overdue maintenance in our national parks and 
forests. No one disputes the need to increase funding to ensure trails, 
campgrounds, and other forest facilities are properly maintained and 
kept clean, or that educational and interpretive programs continue.
    There is no question that if we want to ensure our public lands 
stay in good condition for future generations, having the necessary 
funding to maintain them today is absolutely critical. There is also no 
question that our dedicated forest service employees have done a 
tremendous job despite the inadequate funding they have to do that job.
    The question is whether or not the Recreation Fee Demonstration 
program is the right way to generate that funding. I do not believe 
that it is.
    This program has a spotty track record and raises serious questions 
about fairness, public access, and the way that we fund our National 
Forests.
    American families already pay taxes to maintain their national 
parks and forests. The Fee Demo means that when they use the forest, 
they pay twice, once through income taxes and again when they must 
purchase the Pass. For low-income individuals and families who must 
watch every penny, the cost of an Adventure Pass may keep them from 
accessing their forest. Our public lands must be open to the public--
every member of the public.
    Furthermore, current law and Forest Service policy is subsidizing 
extractive industrial users of the forests, like logging and mining.
    Timber companies, for example, are subsidized for road construction 
to log in our national forests. I have introduced legislation in the 
106th Congress and 107th Congress that would eliminate this shameful 
subsidy paid to timber companies.
    Specifically, my bill would cut public funding for an oversight 
component--Engineering Support for Timber--in the Forest Service's 
budget for timber road construction and maintenance. These funds could 
then be used for recreation and restoration activities in our forests 
currently being funded by the RFDP.
    Between 1992-1997, the GAO estimated that the Forest Service lost 
$2 billion in taxpayer money on commercial logging in our National 
Forests. And mining companies continue to operate under an archaic 1872 
law which enables them to extract precious minerals from public lands 
for a mere fraction of their value.
    Taxpayer and environmental organizations alike have repeatedly 
called for the elimination of these unfair subsidies that siphon off 
critical Forest Service resources and cheat taxpayers. It is unfair to 
ask taxpayers to pay to hike, picnic, park or see a sunset in our 
national forests, while large corporations continue to be subsidized.
    A recent report by the General Accounting Office (GAO) has found 
many faults with the Forest Service's the Fee Demo program. For 
example, the Forest Service spends at least one dollar for every dollar 
it collects to manage the program.
    Specifically, the Forest Service's reported gross Fee Demo revenue 
for FY01 is $35 million. After subtracting the reported cost of 
collection, funds appropriated by Congress to support the program and 
user-fees previously collected at sites that produced fee income prior 
to becoming fee demo sites, the Forest Service generated a total net 
increase in fee revenues of a mere $15 million--or about the same 
amount required to collect the funds.
    The GAO report also highlights the continued accountability 
problems within the agency. While the Forest Service has pointed to 
backlog maintenance as justification for the program, the GAO reports 
that the agency does not know how large the backlog really is.
    And, the GAO's audit also reports that the Forest Service puts less 
priority on paying down the backlog than other land management agency 
and does not even know how much Fee Demo revenue they spend on the 
backlog.
    Supporters of the user fee program in our national forests justify 
it by pointing to the National Park Service's policy of charging 
entrance fees to some of the more prestigious national parks.
    But there are clear differences between national parks and our 
national forests.
    While our parks typically have a wide range of visitor-serving 
facilities, like fully equipped campgrounds and concessions, the 
forests are generally appreciated more for their rugged wilderness and 
vast open spaces.
    Additionally national parks typically have a limited number of 
entrances, while forests like the Los Padres National Forest have 
literally hundreds of access points, making enforcement of the fee 
program problematic for the U.S. Forest Service and for visitors.
    Finally, the National Park Service reported gross revenues of $126 
million from its user fee program. Of that amount, $30 million was 
spent on administration and collection--leaving net revenue of $96 
million to address the maintenance backlog.
    Given their good record, Congress may want to consider making the 
program permanent for the National Park Service. It's clear--the Forest 
Service program doesn't work as intended and should be ended.
    While we need to provide the Forest Service with adequate funding 
to keep our forests healthy and accessible, we must find more equitable 
sources for this funding. We should support the Forest Service by 
increasing its annual budget. And simply by discontinuing corporate 
subsidies, the need to charge the public would be completely 
eliminated.
    As you know, the current authorization for the RFDP does not expire 
until September 30, 2004. Like you, I believe that any profound policy 
changes to this program, including extensions, should not be done 
through the appropriations process.
    Clearly, there is adequate time to address this program through the 
regular authorizing process and I look forward to working with you to 
enact such legislation.
    Thank you again for holding this hearing.
                                 ______
                                 
    Mr. McInnis. Thank you, Mrs. Capps, I appreciate it, and I 
appreciate your attendance today.
    We will go ahead and proceed right to the Committee again. 
I ask that all the panelists respect the 5-minute limitation.
    Mr. Thompson, I am going to start with you. You are Deputy 
Chief, National Forest System, U.S. Forest Service. I 
appreciate very much, as I do with the rest of the panel, that 
you took time today to attend this Committee hearing. You may 
proceed, sir.

           STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, U.S. FOREST SERVICE

    Mr. Thompson. Thank you, Mr. Chairman and members of the 
Committee. I appreciate this opportunity to appear before you 
today, and I am here to discuss the Recreational Fee 
Demonstration Program. We appreciate the Committee's interest 
in this and how the Forest Service is implementing the program 
and want to work with the Congress to implement permanent 
recreation fee authority to provide quality services and 
facilities for the recreating public.
    The Recreational Fee Demonstration Program was first 
authorized by Congress in 1996. The current authorization 
expires on September 30, 2004. Unless fee demo is extended or 
new authority is granted, this important tool will disappear. 
The Recreational Fee Program is vital to our ability to provide 
quality recreation facilities, settings, and services. 
Authorization of a permanent program would allow the agencies 
to serve visitors better by making long-term investments, 
streamlining the program, and creating more partnerships.
    While the idea of charging fees for recreational use on 
National Forests has been controversial in some cases, 
taxpayers generally benefit when the cost of public services 
are at least partially borne by the direct users of those 
services. Since visitors to Federal lands receive some benefits 
that do not directly accrue to the public at large, charging a 
modest fee to offset partially the cost of use is both fair and 
equitable. The principle underlines permanent fee authority 
under the Land and Water Conservation Fund Act. Over the years, 
surveys conducted regarding recreation fees indicate that most 
people accept modest fees, especially when they know that the 
fees are returned to the site where the money has been 
collected to enhance that recreation experience.
    All agencies involved in the fee demo have experimented 
with fees and learned many lessons. This experience has 
provided us with important information about the type of fee 
program that will meet the intended goal of enhancing the 
visitors' and the public's enjoyment of our Federal lands.
    My testimony today regarding the program will focus on 
coordination with the Department of Interior, implementation of 
a blueprint for the Forest Service, benefits to the public, 
accountability, and the future of the program.
    In 2002, the Departments of Agriculture and Interior formed 
the Interagency Recreational Fee Council to facilitate 
coordination and consistency among the agencies on fee 
policies. Over the past 2 years, due to the leadership of the 
Fee Council, the Forest Service and Interior agencies have 
accomplished a lot, including:
    Developing standards for a new fee structure to replace the 
outdated entrance and use fees established by LWCF. Using the 
framework of this new fee structure, in April of 2003, the 
Forest Service dramatically broadened its application of the 
Golden Eagle Passport program to provide expanded interagency 
application and benefits under the Golden Eagle, the Golden 
Age, and Access Permits. Now in the Forest Service those are 
accepted at over 1,500 sites, and previously only 18 Forest 
Service sites accepted the Golden Eagle passports.
    We have also identified, for example, an interagency Fee-
Free Day, and that is this Saturday, which is Public Lands Day 
across the Nation.
    These changes have increased public support for the program 
by minimizing confusion so recreation fees are more convenient 
and beneficial. The program was designed to allow flexibility 
in implementation and to be broad enough to allow agencies to 
experiment with different types of fees. We have learned many 
lessons and gathered information from experiences around the 
country. And as we continue to improve the program, we are 
addressing the problems as they arise.
    The Forest Service is taking the next step toward a 
consistent national recreation fee program. Starting in January 
of next year, the Forest Service will implement the Blueprint 
for Forest Service Recreation Fees.
    The goal of the Blueprint is to have a consistent national 
policy to provide high-quality recreation, services, and 
settings that enhance the visitor's experience and that protect 
natural and cultural resources. By implementing the Blueprint, 
the Forest Service is addressing public and congressional 
concerns to ensure that recreation fees are convenient, 
beneficial, and that we are accountable to the public and the 
trust that they have placed with us in the implementation of 
this program.
    Since the inception of the fee program in 1996, the Forest 
Service has generated over $161 million to enhance visitor 
experience on 92 projects in 114 National Forests and 
Grasslands in 36 States and Puerto Rico. The fee program funds 
are making a crucial difference in providing quality recreation 
services, reducing maintenance backlog, enhancing facilities, 
providing services, education, and operations, enhancing public 
safety and security, developing partnerships, and conserving 
natural resources. Many of these services are provided by 
Forest Service employees and in some cases through service 
contracts that provide additional economic benefits to local 
gateway communities.
    There are many, many examples across the country where 
things have just improved immensely because of this program: 
Arizona, the Coconino; the Siuslaw; in California. In 
California, over 4,500 volunteers made $4 million in service, 
repair, and maintenance contributions; 550 of those volunteers 
receives an annual pass when they volunteered over 100 hours of 
volunteer service.
    We have made tremendous improvements and recognized that 
accountability is important----
    Mr. McInnis. Sir, you need to wrap it up as a courtesy to 
the others.
    Mr. Thompson. OK.
    Mr. McInnis. We are going to have a vote, and the more time 
you take, the less time they get.
    Mr. Thompson. OK. Just one closing sentence?
    Mr. McInnis. Come on, as a courtesy, wrap it up.
    Mr. Thompson. OK. We look forward to working with the 
Committee. We have got tremendous opportunities here to make 
improvements, and we have made a lot of those already.
    Thank you.
    [The prepared statement of Mr. Thompson follows:]

   Statement of Tom Thompson, Deputy Chief, National Forest System, 
        Forest Service, United States Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I am here today to discuss the 
Recreational Fee Demonstration Program. We appreciate the Committee's 
interest in how the Forest Service is implementing this program and 
want to work with Congress to implement permanent recreation fee 
authority to provide quality services and facilities for the recreating 
public.
    The Recreational Fee Demonstration program (Fee Demo) was first 
authorized by Congress in the Fiscal Year (FY) 1996 Interior 
Appropriations (Section 315 of Public Law 104-134). It has given the 
Forest Service, National Park Service, U.S. Fish and Wildlife Service, 
and the Bureau of Land Management an important opportunity to test the 
notion of user-generated cost recovery, where fees are collected and 
expended onsite to provide enhanced services and facilities. The 
current authorization expires on September 30, 2004. Unless Fee Demo is 
extended or new authority is granted, this important tool will 
disappear. The recreation fee program is vital to our ability to 
provide quality recreational facilities, settings, and services. 
Authorization of a permanent program would allow the agencies to serve 
visitors better by making long-term investments, streamlining the 
program, and creating more partnerships.
    While the idea of charging fees for recreational use on our 
national forests has been controversial in some cases, taxpayers 
generally benefit when the cost of pubic services are at least 
partially borne by the direct users of these services. Since visitors 
to Federal lands receive some benefits that do not directly accrue to 
the public at large, charging a modest fee to offset partially the cost 
of that use is both fair and equitable. This principle underlies 
permanent fee authority under the Land and Water Conservation Fund Act 
(LWCFA). Over the years, surveys conducted regarding recreation fees 
indicate that most people accept modest fees, especially when they know 
that the fees are returned to the site where they are collected to 
enhance their recreation experience. With fee support for direct 
services, other critical recreation resource needs on National Forest 
System lands for the Forest Service would be funded through the 
appropriations process. Since there will always be limits on available 
resources, the existing fee authority complements our appropriated 
funds to enhance our ability to better meet our visitors' expectations 
when they recreate on a national forest.
    All agencies involved in Fee Demo have experimented with fees and 
learned many lessons. This experience has provided us with important 
information about the type of fee program that will meet the intended 
goal of enhancing the visiting public's enjoyment of our Federal lands. 
In addition, we have continued to study, evaluate, and improve the fee 
program within individual agencies, and shared these learning 
experiences among all the participating agencies. It has taken time to 
understand the results of these experiences, but the Agency is moving 
aggressively to address concerns that have arisen.
    My testimony today regarding the Forest Service implementation of 
Fee Demo will focus on the following: coordination with the U.S. 
Department of the Interior; implementation of the Blueprint for Forest 
Service Recreation Fees; benefits to the public; accountability; and 
the future of the recreation fee program.
Coordination with the U.S. Department of the Interior
    In 2002, the U.S. Departments of Agriculture and the Interior 
formed the Interagency Recreational Fee Council (Fee Council) to 
facilitate coordination and consistency among the agencies on 
recreation fee policies. Over the past two years, due to the leadership 
from the Fee Council, the Forest Service, and Interior agencies have:
    <bullet> Developed guiding principles that are key to a successful 
recreation fee program;
    <bullet> Developed standards for a new fee structure to replace 
the outdated entrance and use fees established under the LWCFA. Using 
the framework of this new fee structure, in April 2003, the Forest 
Service dramatically broadened its application of the Golden Eagle 
Passport program to provide expanded interagency application and 
benefits (Golden Eagle, Age, and Access Passports are now accepted at 
over 1500 sites; previously only 18 Forest Service sites accepted the 
Golden Eagle passports);
    <bullet> Identified a common interagency recreation Fee-Free Day 
(to be held on National Public Lands Day, September 20, 2003);
    <bullet> Continued to work toward establishing an interagency 
system to provide volunteers with passes;
    <bullet> Included information about recreation fees on the website 
www.recreation.gov;
    <bullet> Prepared and distributed annual reports and an interim 
report to Congress on Fee Demo; and
    <bullet> Based on lessons learned, developed concepts for an 
equitable Fee Demo interagency permanent fee program that provides 
benefits to the recreating public.
    These changes have increased public support for the program by 
minimizing confusion so recreation fees are more convenient and 
beneficial. This has resulted in a simpler interagency fee system that 
can be used at most Forest Service, Bureau of Land Management, National 
Park Service, and U.S. Fish and Wildlife Service units. The Fee Council 
is continuing to work on other ways to improve the fee program, such as 
developing a single interagency passport system. These improvements to 
the fee program are moving us in the right direction.
Implementation of the Blueprint for Forest Service Recreation Fees
    The Recreation Fee Demonstration program was designed to allow 
flexibility in implementation and to be broad enough to allow agencies 
to experiment with different types of fee programs. We have learned 
many lessons and gathered information from our experiences around the 
country. As we continue to improve the program we are addressing 
problems as they arise.
    The Forest Service is now taking the next step toward a consistent 
national recreation fee program. Starting in January 2004, the Forest 
Service will implement the Blueprint for Forest Service Recreation Fees 
(Blueprint). The Blueprint was developed based on the lessons learned 
over the past seven years, specifically: (1) that fees are acceptable 
when they have a direct connection to a perceived benefit; (2) that 
there is strong public support for retaining revenue at the site of 
collection; and (3) that fairness, consistency, convenience of payment, 
and accountability are important to visitors.
    The goal of the Blueprint is to have a consistent national policy 
to provide high quality recreation sites, services, and settings that 
enhance the visitor's experience and that protect natural and cultural 
resources. By implementing the Blueprint, the Forest Service is 
addressing public and Congressional concerns to ensure recreation fees 
are: (1) convenient (making it as easy as possible for visitors to 
comply with fee requirements); (2) beneficial (demonstrating the added 
value the visitor receives in exchange for fees); and (3) accountable 
(building trust by informing the public on program investments and 
performance).
    Each unit that is participating in Fee Demo will have to conduct a 
review to determine how its current fee program fits with the 
Blueprint. For those units that do not conform to the national 
criteria, changes will have to occur. All new projects will have to 
follow the Blueprint criteria. As we implement the Blueprint, we will 
continue to communicate with the public, our partners, and Congress 
regarding our progress throughout the year. Our goal is a nationally 
consistent program that enhances our ability to meet the visitor's 
recreation needs.
Benefits to the Public
    Since the inception of Fee Demo in 1996, the Forest Service has 
generated over $161 million to enhance the visitor experience at 92 
projects in 114 National Forests and Grasslands across 36 States and 
Puerto Rico. Fee Demo funds are making a crucial difference in 
providing quality recreation services, reducing maintenance backlog, 
enhancing facilities, improving visitor services and operations, 
enhancing public safety and security, developing partnerships, 
educating America's youth, and conserving natural resources. Many of 
these services are provided by Forest Service employees and equipment 
and, in some cases, through service contracts that provide additional 
economic benefits to our local gateway communities.
    In Fiscal Year 2002, the Forest Service collected $37.7 million 
under Fee Demo. This has enabled managers to address backlog and 
recurring maintenance, visitor services and operations, interpretation, 
signage, and facility enhancement. Some examples of these projects 
include:
    <bullet> In the Coconino National Forest in Arizona, the removal 
of 22,296 pounds of garbage and 19 abandoned vehicles has reduced 
resource damage and improved the quality of the visitor's experience. 
The Forest has also repaired or replaced 144 signs, conducted 66 
interpretive programs, removed 164 unnecessary fire rings and 39 
transient camps, and maintained 42 miles of trail;
    <bullet> On the Superior National Forest in Minnesota, 43.5 miles 
of hiking trails were cleared, which included the removal of over 700 
downed or hazardous trees. The Forest also relocated 72 latrines, 
replaced 14 fire grates, rebuilt 5 tent pads, and completed 12 campsite 
erosion control projects; and
    <bullet> The Clearwater National Forest in Idaho, in partnership 
with the Idaho Humanities Council, resumed campground interpretive 
programs that had been discontinued in the early 1990s due to lack of 
funding.
    In addition to these projects, we have leveraged Fee Demo funds 
with our partners and local communities:
    <bullet> On the Siuslaw National Forest in Oregon, the Forest 
leveraged Fee Demo revenues 5 times as much, with Oregon Department of 
Transportation Scenic Byway funds to redesign and reconstruct the 
Devils Churn Wayside to manage off-highway vehicle use; and
    <bullet> In Southern California, more than 4,500 volunteers made 
$4,000,000 in service, repair, and maintenance contributions. 550 of 
those volunteers received annual Adventure Passes in recognition of at 
least 100 hours of volunteer service.
Accountability
    Since the beginning of Fee Demo, the Forest Service has recognized 
that accountability is important to gain the trust of recreationists, 
taxpayers, and Congress. The Agency provides information on program 
management and accomplishments in various ways. This information is 
posted on the Internet for convenient access. The Forest Service 
produces an annual report to Congress jointly with agencies in the U.S. 
Department of the Interior. This report contains information on 
revenues, expenditures, management improvements, and on-the-ground 
accomplishments. An interagency interim report to Congress released in 
April 2002 provides a comprehensive evaluation of the program's first 
four years. Information on individual projects is provided through 
reports, information flyers, and postings at recreation sites and 
Internet sites. Feedback is gained through stakeholder meetings, 
comment cards, surveys, and interaction with visitors.
    The U.S. General Accounting Office (GAO) has produced several 
reports on Fee Demo. In its April 2003 review of Forest Service revenue 
management, GAO found that overall the Forest Service has a healthy 
track record in managing Fee Demo revenue and that its expenditures are 
consistent with Congressional intent. The report confirmed that most 
Fee Demo revenue is retained at the site where it is collected and 
spent on priorities identified by visitors to local national forest 
managers; the report showcases many examples of recreation site and 
service improvements. The GAO report confirms that revenues and 
expenditures are accounted for separately from appropriated funds and 
that neither Congress nor the Agency has reduced appropriations based 
on the collection of Fee Demo revenues.
    Despite this positive review, Fee Demo critics have distorted some 
findings and taken others out of context. In fact, the Forest Service 
has managed Fee Demo according to Congressional intent and is focused 
on continuous improvement in this very complex program.
The Future of the Recreation Fee Program
    The Forest Service and agencies in the U.S. Department of the 
Interior have learned a great deal from experience in administering Fee 
Demo and are ready to translate that experience into a permanent 
recreation fee program. Delay could result in a lost opportunity to 
implement a more productive, streamlined recreation fee system that is 
designed to enhance the visitor's experience. Establishment of a 
permanent program does not mean the learning ends. We support a dynamic 
recreation fee program that responds to new lessons and builds on 
success stories.
    Through the Fee Council, seven guiding principles have been 
identified for any long-term fee program: it must be (1) beneficial to 
the visiting public; (2) fair and equitable; (3) efficient; (4) 
consistent; (5) implemented collaboratively; (6) convenient; and (7) 
accountable to the public. The Departments have committed to applying 
these guiding principles to any administrative or legislative effort 
concerning the recreation fee program.
    Through our experience with the fee program, we now have the 
knowledge and tools to establish a successful fee program. We have a 
few suggestions for permanent authority that would adhere to the 
guiding principles and build on lessons learned. A permanent recreation 
fee program should:
    <bullet> Be interagency;
    <bullet> Establish an interagency national pass;
    <bullet> Enhance partnerships with States and Gateway communities;
    <bullet> Provide for a new system of ``basic'' and ``expanded'' 
recreation fees instead of ``entrance'' and ``use'' fees that led to 
fee layering and visitor confusion;
    <bullet> Provide for better reporting on the use of fee revenues;
    <bullet> Establish Agency site-specific and regional multi-entity 
passes;
    <bullet> Provide necessary authorities to implement the program; 
and
    <bullet> Provide criteria for accountability and control of 
revenues collected.
    These important elements provide enough flexibility in the program 
to meet the unique needs of visitors and attain a solid framework for 
consistency among agencies in program delivery. A permanent program 
would also allow the Forest Service, along with the Interior agencies 
to make long-term investments, continue to build further on successes 
of the program, improve efficiencies, and initiate more partnerships.
    Federal lands have provided Americans and visitors from around the 
world with special places for recreation, education, reflection and 
solace. The pattern of recreation on our Federal lands has changed 
dramatically and has increased exponentially. More then ever before 
Americans are choosing to recreate on all Federal lands. The Forest 
Service estimates that over 211 million annual visits to the National 
Forests. This increase in visitation means an increase in visitor 
demand for adequate visitor facilities and services. An increase in 
visitor use on our National Forests also creates a greater need to 
expend funds to protect natural and cultural resources, the resources 
that are often the very reason visitors are drawn to a particular site. 
We want to work with Congress and the public to ensure that our Federal 
lands continue to play this important role in American life and 
culture.
    I look forward to working with you, Mr. Chairman, other members of 
the Subcommittee, and our interagency partners to implement a permanent 
fee program. This concludes my statement. I would be glad to answer any 
questions you may have.
                                 ______
                                 
    Mr. McInnis. Thank you.
    Mr. Hill, of the GAO, I appreciate your time today, and you 
may proceed.

  STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL RESOURCES AND 
          ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss our most recent report on the Forest Service's 
management of the Recreational Fee Demonstration Program. Since 
1996, Federal land management agencies have collected over $900 
million in recreation fees as part of this demonstration 
program, with the Forest Service collecting about $160 million 
of this amount. The Forest Service is one of four Federal land 
management agencies authorized by the Congress to charge fees 
to visitors and to retain the revenues for use in addition to 
other appropriated funds.
    As the program enters its seventh year, fees continue to be 
controversial at some sites. Many of the concerns involve the 
Forest Service, which historically had not charged fees to 
enter its public lands or to use amenities such as trails prior 
to the fee demo program. Moreover, the Forest Service 
introduced a variety of new recreation fees aimed at a range of 
visitor services, including fees for dispersed recreation, such 
as trail access or back-country camping, or for general access. 
Although this experimentation provided valuable information 
about the types of fees that were feasible, it also fueled 
questions about the Forest Service's administration of the 
program.
    My testimony today will address the following issues: 
first, how the Forest Service determines spending priorities 
for the revenues generated by the program; second, how the 
agency has spent its fee demonstration program revenues; third, 
what the agency is doing to measure the impact of the 
recreation fee revenues on reducing its deferred maintenance 
backlog; and, fourth, how the agency accounts for its fee 
demonstration program revenues.
    Let me start by discussing how the Forest Service 
determines the demonstration spending priorities.
    The Service largely determines its spending priorities 
through local forest managers who are given broad discretion in 
deciding how to use the fee revenues. Local managers are 
expected to establish spending priorities consistent with 
general program guidance provided by headquarters. This 
guidance advises local managers to spend fee revenues on needs 
that have been identified by visitors and to maintain existing 
facilities rather than initiate new construction projects.
    In the three forest regions that we visited, managers 
established priorities on the basis of visitor desires and 
through local user groups and regional boards. According to 
these officials, visitors generally preferred spending 
priorities that address health and safety needs, maintenance 
needs, and improved visitor services.
    With regard to how the agency is spending these fees, the 
Forest Service has spent fee demo revenues on a wide range of 
projects at National Forests throughout the country. The 
legislation authorizing the demonstration program permits the 
participating agencies to spend fee revenues on a broad range 
of activities aimed at increasing the quality of the visitor 
experience and enhancing the protection of the resources. These 
include such things as visitor services, facility maintenance 
and enhancement, fee collection, resource protection, and law 
enforcement.
    To verify how the fee revenue is being spent, we visited a 
sample of demonstration sites in three Forest Service regions. 
We found that the fee revenues were being spent consistent with 
the legislative authority provided for the program and with 
agency spending priorities.
    As far using these funds for its maintenance backlog, the 
Forest Service has been using a portion of these revenues to 
help address its deferred maintenance needs. In fact, in each 
of the locations we visited, site managers were using a portion 
of these revenues to do a variety of projects that addressed 
their deferred maintenance needs. However, the agency has not 
developed a process for measuring the impact of fee 
demonstration expenditures on reducing the deferred maintenance 
backlog. Further, while acknowledging that it has a significant 
deferred maintenance problem in the billions of dollars, the 
agency has not developed a reliable estimate of its deferred 
maintenance needs.
    Concerning how the agency accounts for its fee 
demonstration revenues, the authorizing legislation for the fee 
demonstration program requires that the participating Federal 
agencies maintain fee revenues in separate treasury accounts 
and to account for fee expenditures separately from other 
appropriated fund expenditures. And we found that the Forest 
Service was complying with this requirement.
    Mr. Chairman, this concludes my statement.
    [The prepared statement of Mr. Hill follows:]

      Statement of Barry T. Hill, Director, Natural Resources and 
              Environment, U.S. General Accounting Office

                            RECREATION FEES
 
         INFORMATION ON FOREST SERVICE MANAGEMENT OF REVENUE 
                   FROM THE FEE DEMONSTRATION PROGRAM

What GAO Found
    Local Forest Managers largely determine Forest Service spending 
priorities for the Recreational Fee Demonstration Program. Given broad 
discretion in deciding how to use fee demonstration revenues, local 
forest managers retain between 90 and 100 percent of the fee 
demonstration revenue at the sites where fees are collected and are 
expected to establish spending priorities consistent with general 
program guidance provided by Forest Service headquarters. This guidance 
advises local forest managers to spend fee demonstration revenues on 
needs that have been identified by forest visitors and to maintain 
existing facilities rather than initiate new construction projects.
    On the basis of priorities identified by local users, the Forest 
Service has spent fee demonstration revenues on a wide range of 
projects at national forests throughout the country. The legislation 
authorizing the fee demonstration program permitted all the 
participating agencies to spend fee revenues on certain categories of 
activities to increase the quality of the visitor experience and 
enhance the protection of resources. GAO's review at selected Forest 
Service sites found that expenditures were consistent with authorizing 
legislation and agency spending priorities.
    The Forest Service does not have a process for measuring the impact 
of fee demonstration expenditures on reducing the deferred maintenance 
backlog. Further, while the agency acknowledges that it has a 
significant deferred maintenance problem, it has not developed a 
reliable estimate of its deferred maintenance needs.
    Consistent with the authorizing legislation for the fee 
demonstration program, the Forest Service keeps its fee revenue in 
accounts separate from other appropriated funds. The agency also tracks 
its fee revenues and expenditures separately from its appropriated 
funds.

Why GAO Did This Study
    Since 1996, federal land management agencies have collected over 
$900 million in recreation fees from the public under an experimental 
initiative called the Recreational Fee Demonstration Program. The 
Forest Service's part was about $160 million. The authority to collect 
these fees expires at the end of Fiscal Year 2004. Central to the 
debate about whether to reauthorize the program is how effectively the 
land management agencies are using the hundreds of millions of dollars 
that the recreation fees have provided them. In April 2003, GAO 
reported on Forest Service management of the fee demonstration program. 
(See Recreation Fees: Information on Forest Service Management of 
Revenue from the Fee Demonstration Program, GAO-03- 470 [Washington 
D.C.: Apr. 25, 2003]).
    This testimony is based on the work GAO conducted for the April 
2003 report. Four issues are addressed: (1) how the Forest Service 
determines spending priorities for the revenues generated by the fee 
program, (2) how the agency has spent its fee demonstration program 
revenues, (3) what the agency is doing to measure the impact of the 
recreation fee revenues on reducing its deferred maintenance backlog, 
and (4) how it accounts for its fee demonstration program revenues.
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss our most recent report on the Forest Service's 
management of the Recreational Fee Demonstration Program. <SUP>1</SUP> 
Since 1996, federal land management agencies have collected over $900 
million in recreation fees from the public under an experimental 
initiative called the Recreational Fee Demonstration Program. The 
Forest Service's part is about $160 million. The Forest Service is one 
of the four federal land management agencies authorized by Congress to 
charge fees to visitors and to retain the revenues for use in addition 
to other appropriated funds. <SUP>2</SUP>2 The Congress originally 
authorized the program for 3 years and has extended it several times. 
The authority to collect these fees currently expires at the end of 
Fiscal Year 2004.
---------------------------------------------------------------------------
    \1\ 1 U.S. General Accounting Office, Recreation Fees: Information 
on Forest Service Management of Revenue from the Fee Demonstration 
Program, GAO-03-470 (Washington, D.C.: Apr. 25, 2003).
    \2\ The other three land management agencies authorized to charge 
fees under the Recreational Fee Demonstration Program are the National 
Park Service, the Fish and Wildlife Service, and the Bureau of Land 
Management.
---------------------------------------------------------------------------
    As the program enters its seventh year, the fees continue to be 
controversial at some sites, and critics question the extent to which 
program expenditures directly benefit visitors. Many of the concerns 
involve the Forest Service, which, unlike the National Park Service, 
had not historically charged fees to enter its public lands or to use 
amenities such as trails prior to the fee demonstration program. 
Moreover, the Forest Service introduced a variety of new recreation 
fees aimed at a range of visitor uses, including fees for dispersed 
recreation, such as trail access or backcountry camping, or for general 
access. Although this experimentation provided valuable information 
about the types of fees that were feasible, it also fueled questions 
about the Forest Service's administration of the program. Accordingly, 
as you requested, my testimony today will address the following issues: 
(1) how the Forest Service determines spending priorities for the 
revenues generated by the fee program; (2) how the agency has spent its 
fee demonstration program revenues; (3) what the agency is doing to 
measure the impact of the recreation fee revenues on reducing its 
deferred maintenance backlog; and (4) how it accounts for its fee 
demonstration program revenues.
Results in Brief
    Local forest managers largely determine Forest Service spending 
priorities for the Recreational Fee Demonstration Program. Given broad 
discretion in deciding how to use fee demonstration revenues, local 
forest managers retain between 90 and 100 percent of the fee 
demonstration revenue at the sites where fees are collected. Local 
managers are expected to establish spending priorities consistent with 
general program guidance provided by Forest Service headquarters. This 
guidance advises local managers to spend fee demonstration revenues on 
needs that have been identified by forest visitors; it also directs 
local managers to spend the resources on maintaining existing 
facilities rather than initiating new construction projects.
    On the basis of priorities identified by local users, the Forest 
Service has spent fee demonstration revenues on a wide range of 
projects at national forests throughout the country. The legislation 
authorizing the fee demonstration program permits the participating 
agencies to spend fee revenues on a broad range of activities aimed at 
increasing the quality of the visitor experience and enhancing the 
protection of resources such as providing visitor services, maintaining 
and enhancing facilities, fee collections, and enforcing laws. To 
verify how the fee revenue was being spent we visited a number of 
Forest Service sites across the country and found that expenditures 
were consistent with the authorizing legislation for the program and 
agency spending guidance and priorities.
    The Forest Service has not developed a process for measuring the 
impact of fee demonstration expenditures on reducing the deferred 
maintenance backlog. According to agency officials, there are several 
reasons for this--for example, the temporary status of the program and 
the fact that the legislation establishing the program does not require 
that the impact be measured. Further, while officials acknowledge that 
the Forest Service has a significant deferred maintenance problem, the 
agency has not developed a reliable estimate of its deferred 
maintenance needs.
    Consistent with the authorizing legislation for the fee 
demonstration program, the Forest Service keeps its fee revenue in 
Treasury accounts separate from other appropriated funds. The agency 
also tracks its fee revenue and expenditures separately from its 
appropriated funds.

Background
    The Forest Service is responsible for managing over 192 million 
acres of public lands in the United States. In carrying out its 
responsibilities, the Forest Service has traditionally been a 
decentralized organization, whose programs are administered through 
nine regional offices, 155 national forests, and over 600 ranger 
districts (each forest has several districts).
    The Forest Service began implementing the Recreational Fee 
Demonstration Program in Fiscal Year 1996 with four demonstration sites 
that generated a total of $43,000 during the year. <SUP>3</SUP> The 
program has steadily grown over the past 6 years and now covers 92 
sites in 114 national forests and grasslands. These sites generated 
about $38 million in revenue in Fiscal Year 2002. A demonstration site 
may consist of an individual forest; a group of forests, such as the 
National Forests in Texas; or a specific area or activity within a 
forest, such as Mount St. Helens National Volcanic Monument in the 
Gifford Pinchot National Forest in Washington.
---------------------------------------------------------------------------
    \3\ Although the Forest Service refers to fee demonstration sites 
as projects throughout this statement, we call them sites. Under the 
original Recreational Fee Demonstration Program legislation, between 10 
and 50 sites per agency were permitted to establish, charge, and 
collect recreation fees (P.L. 104-134, title III, Sec. 315 [1996]). In 
Fiscal Year 1997 appropriations, the Congress increased the number of 
authorized sites to 100 per agency (P.L. 104-208, title III, Sec. 319 
[1996]). In Fiscal Year 2002 appropriations, the Congress eliminated 
the 100 demonstration sites per agency limitation (P.L. 107-63, title 
III, Sec. 312 (b)[2001]).
---------------------------------------------------------------------------
Local Forest Service Officials Determine Spending Priorities
    Spending priorities for the Recreational Fee Demonstration Program 
are largely determined by local forest managers who are given broad 
discretion in deciding how to use fee demonstration revenues. Forest 
Service headquarters provides general program guidance that advises the 
local managers to focus their spending priorities on two things. First, 
local managers are to identify what the visitors want because the 
Forest Service believes that users will more likely accept having to 
pay fees if they see that their money is spent on improving services in 
the forests they visit. Second, existing facilities such as restrooms 
and visitor centers should be maintained because the agency prefers to 
use fee revenue to maintain such facilities rather than to initiate new 
capital projects that would increase its inventory of assets and add to 
operating and maintenance costs.
    In the three Forest Service regions that we visited, local forest 
managers told us that they establish priorities on the basis of visitor 
desires that are identified through visitor comment cards, visitor 
surveys, local user groups, associations, and regional boards. 
<SUP>4</SUP> According to these officials, visitors generally desire 
spending priorities that address health and safety needs; maintenance 
needs; and improved visitor services, such as interpretative services.
---------------------------------------------------------------------------
    \4\ Regional boards, which consist of members with recreation, 
forest, law enforcement, fiscal, and economic backgrounds, are used to 
help oversee the fee demonstration program within each region of the 
Forest Service.
---------------------------------------------------------------------------
    Further, local forest managers told us that visitors expect that 
fee demonstration revenues be retained and used at the sites where fees 
are collected. In this regard, the Forest Service retains between 90 
and 100 percent of fee revenues for use at the collection sites. The 
portion of fee revenues that is not retained on site is used by the 
regional offices for a variety of program-related activities, such as 
providing start-up money for new demonstration sites, providing fee 
demonstration program signs and brochures, initiating regional pass 
sales, and supporting marketing activities.

Revenues Are Spent on a Wide Range of Activities
    In the authorizing legislation for the Recreational Fee 
Demonstration Program, the Congress provided the Forest Service and the 
other land management agencies broad authority in deciding how to spend 
fee demonstration revenues. The 1996 authorizing legislation 
<SUP>5</SUP> permitted the agencies to spend fee demonstration revenues 
for: backlogged repair and maintenance projects, interpretation, 
signage, habitat or facility enhancement, resource preservation, annual 
operation (including fee collection), maintenance, and law enforcement 
relating to the public use of lands. Our analysis at a sample of sites 
participating in the fee demonstration program showed that fee revenue 
was being spent on a wide range of projects that were consistent with 
the authorizing legislation the program and agency spending priorities. 
For Fiscal Year 2001, the Forest Service reported that it collected 
about $35 million in fees and spent about $29.3 million, with about 
half of the expenditures going toward visitor services and operations 
and maintenance activities.
---------------------------------------------------------------------------
    \5\ Omnibus Consolidated Rescissions and Appropriations Act of 
1996, P.L. No. 104-134, title III, Sec.315(c)(3).
---------------------------------------------------------------------------
    We reviewed the activities at a sample of demonstration sites in 
three Forest Service regions that have generated the most revenue to 
determine how funds were spent, the appendix lists the specific regions 
and sites we visited. The types of projects being funded at the sites 
we visited included
    <bullet> constructing a boat launch area along the Nantahala 
River, a world-class whitewater river that attracts about 250,000 
people annually in the National Forests of North Carolina;
    <bullet> operating a wastewater treatment plant that serves the 
visitor center at Multnomah Falls, located within 30 miles of Portland, 
Oregon, and one of the most popular attractions in the Columbia River 
Gorge National Scenic Area, which receives over 2 million visitors per 
year; and
    <bullet> acquiring fire rings, cooking grills, and picnic tables 
at Kisatchie National Forest in Louisiana to improve campground 
services.
    On the basis of our review and on-site observations, we found that 
the fee demonstration program expenditures were consistent with the 
legislative authority provided for the program and with agency spending 
priorities.

The Forest Service Has No Process for Measuring the Impact of Fee 
        Revenues on Deferred Maintenance
    The Forest Service has used a portion of its fee program revenues 
to help address its deferred maintenance backlog. However, the agency 
does not have a process for measuring how much has been spent on 
deferred maintenance or the impact of the fee revenue program has had 
on reducing its deferred maintenance needs. In addition, while the 
agency acknowledges that it has a significant deferred maintenance 
problem, it has not developed a reliable estimate of its deferred 
maintenance needs. As a result, even if the agency knew how much fee 
revenue it spent on deferred maintenance, it would not know the extent 
to which its total deferred maintenance needs were being reduced.
    The legislation authorizing the Recreational Fee Demonstration 
Program permits the Forest Service and the other participating agencies 
to spend fee revenues on deferred maintenance needs. In fact, at each 
of the locations we visited, the site managers told us that they were 
using a portion of fee revenues to implement a variety of projects that 
addressed deferred maintenance needs such as replacing worn and rotted 
picnic tables at a campground in Klamath National Forest in California, 
fixing eroded hiking trails in the Nantahala Gorge in the North 
Carolina National Forest, and replacing deteriorating restrooms in 
Kisatchie National Forest in Louisiana.
    Forest Service officials told us that there are a number of reasons 
why the agency has not developed a process to track deferred 
maintenance expenditures from fee demonstration revenues. First, the 
agency chose to use its fee demonstration revenue to improve and 
enhance on-site visitor services rather than to use its revenue in 
developing and implementing a system for tracking deferred maintenance 
spending. Second, because the fee demonstration program is still 
temporary, agency officials said that they have concerns about 
developing an additional process for tracking deferred maintenance. 
Finally, the agency faced no specific requirement to measure the impact 
of fee revenues on deferred maintenance.
    Forest Service officials acknowledge that the agency has a 
significant deferred maintenance problem. In Fiscal Year 2001, the 
agency estimated that its total deferred maintenance backlog was in the 
billions of dollars, most of which was for forest roads and bridges. 
According to the Forest Service, the recreation-related component of 
this estimate was in the hundreds of millions of dollars.
    However, in March 1999, the Department of Agriculture's Inspector 
General testified that the Forest Service did not have a reliable 
estimate of the amount of its deferred maintenance backlog. 
<SUP>6</SUP> Further, the Inspector General pointed out that the agency 
had no systematic method for compiling the information needed to 
provide managers or the Congress with reliable estimates. Although the 
Forest Service has since implemented an initiative to help gather and 
develop better information on the amount of its deferred maintenance 
backlog, the findings of the Inspector General's report are still 
valid. Forest Service officials acknowledge that they are still in the 
process of developing a reliable estimate of the agency's deferred 
maintenance backlog.
---------------------------------------------------------------------------
    \6\ Testimony of Roger Viadero, Inspector General, U.S. Department 
of Agriculture, before the Committee on Agriculture, Subcommittee on 
Department Operations, Oversight, Nutrition, and Forestry, House of 
Representatives, Concerning the Financial Accountability of the Forest 
Service (Mar. 11, 1999).
---------------------------------------------------------------------------
The Forest Service Accounts for Its Fee Demonstration Program Revenues 
        and Expenditures Separately from Other Funds
    The authorizing legislation for the fee demonstration program 
requires the participating federal agencies to maintain fee revenue in 
separate Treasury accounts and to account for fee expenditures 
separately from other appropriated fund expenditures. Consistent with 
the requirement, the Forest Service maintains its fee revenues in 
separate Treasury accounts and tracks fee revenue and expenditures 
separately from other appropriated funds. For example, officials at the 
Gifford Pinchot National Forest in the Pacific Northwest Region used a 
combination of fee demonstration revenues and other appropriated funds 
to replace a bridge on the Pacific Crest National Scenic Trail in 2001. 
For this project, agency officials accounted for revenues and 
expenditures from the fee demonstration program separately from the 
revenues and expenditures from other appropriated funding sources.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.

    [An attachment to Mr. Hill's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T9400.001
    

    Mr. McInnis. Thank you, Mr. Hill. I appreciate your time.
    Mr. Robertson, I appreciate you coming down today, and you 
may proceed.

  STATEMENT OF JASON D. ROBERTSON, NATIONAL ACCESS AND POLICY 
                 DIRECTOR, AMERICAN WHITEWATER

    Mr. Robertson. Mr. Chairman, thank you for inviting me to 
speak today.
    The last time I was invited to speak before this Committee 
was in the tragic days after 9/11. I am glad to be here on a 
happier occasion.
    In the 2 years since I last testified on fee demo, there 
have been some small changes and improvements; however, public 
dissatisfaction with the program has continued to grow, and the 
agencies continue to push for permanent fee collection 
authority without resolving most of the problems described 
previously by me, the GAO, and others. Rather than repeating 
myself, I encourage the Committee to review my comments from 
2001 and the 2003 GAO report in light of today's testimony.
    After 6 years of reviewing fee demo, I can better 
appreciate the agencies' funding needs and can look back on the 
program with a richer perspective. As you may recall, American 
Whitewater has been working on fee demo since its inception and 
initially supported it when it was introduced in 1997. However, 
many of the first fees were tested on river recreationists 
without a clear, on-the-ground explanation of the program's 
objectives, scope, or intent. By 1998, boaters were being 
charged at nearly one-third of all the approved fee demo sites. 
As a result, our members were convinced that the fees were 
unnecessarily onerous without obvious benefit, that boaters 
were being unfairly targeted, and that boaters were subsidizing 
other forest uses.
    Now it is relatively easy to find local governments who 
support the fee programs because they benefit from fee 
collection services and expenditures. However, it is hard to 
find any recreationist or forest visitors who are willing to 
advocate for continued fee authority for the Forest Service or 
Bureau of Land Management. I find this is interesting because 
it is in stark contrast to the public's response to fee 
collection by the Park Service. In fact, even the staunchest 
opponents to Forest Service's fees support Senate bill 1107, 
which permanently extends fee authority for the National Parks. 
The difference appears to be based on the public expectation of 
service and historic payment of visitation fees on Park Service 
properties, which are viewed as national treasures, in contrast 
to the tradition of public recreation and use of Forest Service 
and BLM lands for more traditional pastimes including hunting, 
fishing, hiking, and boating that tend to require fewer 
services in the eyes of the public.
    In 1998, American Whitewater's Board of Directors asked me 
to work on improving the ways in which fee demo affected the 
boating community, whether through modification or termination 
of the program. This discussion has continued long enough, and 
it is time for Congress to decide whether to terminate this 
program once and for all or make it permanent.
    At issue is the fundamental preservation of the principle 
of free access to Federal recreation lands. Is Congress willing 
to make trespassers out of taxpayers? If Congress extends the 
fee collection authority for the agencies in question, is 
Congress prepared to hold agencies accountable and ensure that 
the faults ascribed to the Forest Service in the recent 2003 
GAO report are addressed and resolved in a timely, efficient, 
consistent, and accurate manner?
    In 1997, the human-powered recreation groups liked one 
element of fee demo. We liked that the program was intended to 
help defray or mitigate maintenance costs resulting from 
recreation by returning fees directly to the resource to 
benefit the users from which they were collected.
    That single objective was based on a philanthropic ideal of 
servicing and protecting the environment that we love as 
hikers, boaters, climbers, fishermen, and hunters.
    However, while most of the recreation community still likes 
that single element of the program, taxpayer support has been 
whittled away by the dislike for the ways in which the Federal 
land management agencies: one, stretched the scope of the 
program to defray other visitation costs; two, played apparent 
shell games by shifting funding across broad forest regions and 
large demo sites; three, used funds to construct new 
facilities; four, limited use and access through new permits; 
five, broadly expanded the program through creative 
wordsmithing; and, six, enforced fee collection through 
occasionally heavy-handed methods including the unsuccessful 
attempt earlier this year to classify infractions as Class B 
misdemeanors with the possibility of imprisonment.
    Thus, in answer to the question of what is working well 
under fee demo and which areas are most in need of improvement, 
my response is that the narrow goal of defraying maintenance 
costs remains worthy of support and that all other purposes to 
which the legislative mission of the program has been stretched 
should be terminated.
    At present, the agencies continue to have a severe 
credibility gap when it comes to fee demo. The problems are 
numerous: Fees are often implemented without adequate public 
input; there is a widespread public perception among 
recreationists that fees are a boondoggle for local managers; 
it is not clear which fees are being charged under fee demo and 
which are being charged under other fee authorities; when the 
public questions a particular implementation element of a fee, 
managers are slow to respond and rarely initiate requested 
changes on behalf of the public; and fees are still being 
imposed before specific projects are selected, thus the public 
does not know in advance where their fees are going.
    The agencies have also taken action that were insensitive 
to the public's concerns over abuse of the program. For 
example, the boating community's primary fear of the fee 
program is driven by a concern that it will lead to unpopular 
``big government'' programs. In addition, fees have been cited 
as a motivating factor for implementing or considering new 
permit systems on several Western rivers, including Colorado's 
Gunnison. Fees have been charged to simply park alongside 
Idaho's Payette at dirt lots with no services. And fees from 
boaters have been sought to pay for subsidizing other users 
through such peripheral action as paving Federal highways in 
Arizona or hauling trash in Idaho.
    In conclusion, if the Forest Service and BLM focus on the 
core intent of fee demo and only charge fees to help with basic 
recreation maintenance on land and water trails for 
recreational use and only utilize the fees on programs that 
directly, locally, and obviously benefit the group being 
charged, it will do much to restore the credibility of the 
agencies and may even generate long-term support for fees. If 
this is not a readily achievable goal or is too narrow, then 
the agencies should stop pushing for fee collection authority, 
and this Committee should refuse to extend the program.
    Thank you for this opportunity to speak. I ask that my 
written comments are added to the record, and I look forward to 
responding to any questions later.
    [The prepared statement of Mr. Robertson follows:]

 Statement of Jason D. Robertson, National Access and Policy Director, 
                          American Whitewater

    Mr. Chairman, thank you for inviting me to speak today.
    The last time I was invited to speak before this committee was in 
the tragic days after 9/11. I am glad to be here on a happier occasion.
    In the two years since I last testified on Fee Demo, there have 
been some small changes and improvements; however public 
dissatisfaction with the program has continued to grow, and the 
Agencies continue to push for permanent fee collection authority 
without resolving most of the specific problems described by me, the 
GAO, and others. Rather than repeating myself, I encourage the 
Committee to review my comments from 2001, and the 2003 GAO report in 
light of today's testimony.
    Now, in 2003, six years after Fee Demo was implemented and three 
years after Congress authorized the first extension of the program 
without public review, I can better appreciate the agencies' funding 
needs and can look back on the program with a richer perspective.
    As you may recall, American Whitewater has been working on Fee Demo 
since its inception, and initially supported it when it was introduced 
in 1997. However, many of the first fees were tested on river 
recreationists without a clear on-the-ground explanation of the 
program's objectives, scope, or intent. By 1998 boaters were being 
charged at nearly one-third of all the approved Fee Demo sites. As a 
result, our members were convinced that the fees were unnecessarily 
onerous without obvious benefit; that boaters were being unfairly 
targeted; and that boaters were subsidizing other forest uses.
    Now, more than 6 years after inception of the Fee Demo program, it 
is relatively easy to find local governments and civic organizations 
who support the fee programs because they benefit from the fee 
collection; however it is hard to find any recreationists or Forest 
visitors who are willing to advocate for continued fee authority for 
the Forest Service or Bureau of Land Management (BLM). This is 
interesting because it is in stark contrast to the public's response to 
fee collection by the Park Service. In fact even the staunchest 
opponents to Forest Service Fees support Senate Bill 1107, which 
permanently extends fee authority for the National Parks. The 
difference appears to be based on the public expectation of service and 
historic payment of visitation fees on Park Service properties, which 
are viewed as national treasures, in contrast to the tradition of 
public recreation and use of Forest Service and BLM lands for more 
traditional pastimes including hunting, fishing, hiking and boating 
that tend to require fewer services in the eyes of the public.
    In 1998, American Whitewater's Board of Directors asked me to work 
on improving the ways in which Fee Demo affected the boating community, 
whether through modification or termination of the program. This 
discussion has continued long enough, and it is time for Congress to 
decide whether to terminate this program once-and-for-all or make it 
permanent.
    At issue is the fundamental preservation of the principle of free 
access to federal recreation lands. Is Congress willing to make 
trespassers out of taxpayers? If Congress extends the fee collection 
authority for the agencies in question, is Congress prepared to hold 
the Agencies accountable and ensure that the faults ascribed to the 
Forest Service in the recent 2003 GAO report ``RECREATION FEES: 
Information on Forest Service Management of Revenue from the Fee 
Demonstration Program'' are addressed and resolved in a timely, 
efficient, consistent, and accurate manner?
    In 1997 the human-powered recreation groups liked one element of 
Fee Demo; we liked that the program was intended to help defray or 
mitigate maintenance costs resulting from recreation by returning fees 
directly to the resource to benefit the users from which they were 
collected.
    That single objective was based on a philanthropic ideal of 
servicing and protecting the environment that we love as hikers, 
boaters, climbers, fishermen, and hunters.
    However, while most of the recreation community still likes that 
single element of the program, taxpayer support has been whittled away 
by the dislike for the ways in which the Federal land management 
agencies: (1) stretched the scope of the program to defray other 
visitation costs; (2) played apparent shell games by shifting funding 
across broad Forest Regions and large Demo sites; (3) used funds to 
construct new facilities; (4) limited use and access through new 
permits; (5) broadly expanded the program through creative 
wordsmithing; and (6) enforced fee collection through occasionally 
heavy-handed methods including the unsuccessful attempt to classify 
infractions as Class B Misdemeanors with the possibility of 
imprisonment.
    Thus in answer to the question of what is working well under Fee 
Demo and which areas are most in need of improvement, my response is 
that the narrow goal of defraying maintenance costs remains worthy of 
support, and that all other purposes to which the legislative mission 
of the program has been stretched should be terminated.
    At present the Agencies continue to have a severe credibility gap 
when it comes to Fee Demo. The problems are numerous:
    <bullet> Fees are often implemented without adequate public input;
    <bullet> There is a widespread public perception among 
recreationists that fees are a boondoggle for local managers;
    <bullet> It is not clear which fees are being charged under Fee 
Demo and which are being charged under other fee authorities;
    <bullet> When the public questions a particular implementation 
element of a fee, managers are slow to respond and rarely initiate 
requested changes on behalf of the public; and
    <bullet> Fees are still being imposed before specific projects are 
selected, thus the public does not know in advance where their fees are 
going.
    The agencies have also taken actions that were insensitive to the 
public's concerns over abuse of the program. For example, the boating 
community's primary fear of the fee program is driven by a concern that 
it will lead to unpopular ``big government'' programs. For instance, 
fees have been cited as a motivating factor for implementing or 
considering new permit systems on several Western rivers including 
Colorado's Gunnison. Fees have also been charged to simply park 
alongside Idaho's Payette for dirt lots with no services. And, fees 
from boaters have been sought to pay for subsidizing other users 
through such peripheral action as paving Federal highways in Arizona or 
hauling trash in Idaho.
    One example that is often cited by the Forest Service as a Fee Demo 
success is the Nantahala in North Carolina. I take issue with this. 
Yes, the fees have paid for improved parking areas, overlooks, picnic 
tables, and new toilet facilities. On the plus side, these facilities 
are appreciated by nearly all visitors. However, on the negative side, 
the fees are still only being charged to boaters, though everyone 
visiting or driving through the Gorge from fishermen to truckers 
benefit from these services. Further, the Agency continues to require 
boaters to wear an armband on the river, despite the fact that it is 
highly unpopular and relatively inconvenient to obtain.
    The effect of the practices on the Nantahala is that private 
boaters subsidize other uses, and do not feel that the Forest Service 
is concerned with their best interests.
    In conclusion, if the Forest Service and BLM focus on the core 
intent of Fee Demo and only charges fees to help with basic recreation 
maintenance on trails and recreational use, and only utilize the fees 
on programs that directly, locally, and obviously benefit the group 
being charged, it will do much to restore the credibility of the 
agencies and may even generate long-term support for fees. If this is 
not a readily achievable goal or is too narrow, then the Agencies 
should stop pushing for fee collection authority and this Committee 
should refuse to extend the program.
    Thank you for this opportunity to speak, I look forward to 
responding to your questions.

 ANALYSIS AND QUESTIONS ABOUT THE APRIL 2003 GAO REPORT ``RECREATION 
FEES: Information on Forest Service Management of Revenue from the Fee 
                        Demonstration Program''

    The Forest Service's reported gross Fee Demo revenue for FY 2001 
was over $35 million (p.6). The reported cost of collection was 
$5,051,000 (p. 9). $10 million of appropriated funds were used to 
support the fee demonstration program (p.32). $4.6 million was 
collected from sites that produced fee income prior to becoming fee-
demonstration sites [i.e., campgrounds, boat launches, etc].
    Subtracting these sources of income from the gross revenue results 
of all Forest Service fee-demo sites in all of the United States shows 
that Fee Demo generated a total net increase in fee revenues of a mere 
$15 million. In other words it cost the Forest Service and Taxpayers $1 
to raise $2.
    This calculation does not even include administrative costs, which 
the GAO did not calculate due to incomplete reporting by the Forest 
Service. Inclusion of those administrative costs would likely push the 
net revenue from the Fee Demo much lower.
    Some of the faults identified by the GAO are included below, the 
paragraphs that these quotes were drawn from are included afterwards:
    <bullet> ``[W]e did find that the Forest Service does not provide 
consistent information on where fee revenue is being spent.'' (page 3)
    <bullet> ``The Forest Service does not have a process for 
measuring the impact of fee demonstration expenditures on reducing the 
deferred maintenance backlog.'' (page 4)
    <bullet> ``[W]hile acknowledging that it has a significant 
deferred maintenance problem, the agency has not developed a reliable 
estimate of its deferred maintenance needs.'' (page 4)
    <bullet> ``Although the Forest Service tracks its fee revenues and 
expenditures separately from other appropriated funds, it does not 
accurately account for some fee collection costs. Specifically, the 
Forest Service does not report total revenues and fee collection costs 
related to discounts that vendors receive for selling recreation passes 
directly to the public.'' (page 5)
    <bullet> ``[T]he accuracy of program-wide information depicting 
the amounts of fee revenues spent for various categories is 
questionable'' (page 5)
    <bullet> ``[W]e found that the information that the Forest Service 
provides on categorizing expenditures is not consistently reported. 
First, the fee program managers do not allocate their expenditures into 
the spending categories in a systematic manner. Second, the Forest 
Service fee revenue expenditure reporting categories overlap'' (page 
16)
    <bullet> ``[T]he Forest Service officials stated that their 
accounting system is not set up to track expenditures into these 
categories. Local fee program managers, who compile the fee revenue 
expenditure data, use various methods to record their expenditures.--
(page 16)
    <bullet> ``[I]n the absence of forest managers having a consistent 
and systematic method for tracking and recording the expenditure 
amounts by spending category, the accuracy of the spending information 
in the agency's annual report is questionable.'' (page 16)
    <bullet> ``Another concern affecting the spending information in 
the agency's annual report is the subjectivity of the spending 
categories themselves...expenditures for fee enforcement activities and 
fee collections may also be reported inconsistently...These 
inconsistencies further affect the consistency of the Forest Service's 
reporting of where fee revenues are actually spent.'' (page 17)
    <bullet> ``[T]he agency does not have a process for measuring how 
much has been spent on deferred maintenance or its impact on reducing 
its deferred maintenance needs. In addition, while the agency 
acknowledges that it has a significant deferred maintenance problem, it 
has not developed a reliable estimate of its deferred maintenance 
needs. As a result, even if the agency knew how much fee revenue it is 
spending on deferred maintenance, it would not know if its total 
deferred maintenance needs are being reduced.'' (page 19)
    <bullet> ``[T]he amount of agency expenditures for deferred 
maintenance cannot be determined nor can the agency determine whether 
the backlog of deferred maintenance needs is being reduced.'' (page 21)
    <bullet> ``Although the Forest Services accounting system should 
capture all revenues and expenses, program officials were not aware at 
the time the system was developed that vendor discounts should have 
been captured...Excluding vendor discounts from the cost of collection 
is also inconsistent with federal financial accounting standards...'' 
(page 25)
    <bullet> ``The Forest Service practice of allowing vendor 
discounts results in inaccurate fee revenue and expenditure 
reporting...[B]oth fee revenues and fee collection costs are 
underreported. Because of inaccurate reporting of fee revenues and 
collection costs, the Forest Service has no assurance that it is in 
compliance with the recreational fee demonstration legislation 
requirement only allowing 15 percent of fee revenues to be used for fee 
collection costs.'' (page  25)
    <bullet> ``[T]he Forest Service accounting system does not track 
administrative overhead costs for the Recreational Fee Demonstration 
Program or any other individual program within the agency. As a result 
the agency cannot determine these costs.'' (page 32)

SELECTED QUOTES FROM GAO REPORT (GAO-03-470, APRIL 2003)
    Based on the most recent Forest Service data available, in Fiscal 
Year 2001, the agency spent 29 percent of its fee demonstration revenue 
expenditures on visitor services and operations, including trash 
collection, campfire programs, and visitor satisfaction surveys; 21 
percent on maintenance of facilities, such as repairing comfort 
stations and fixing roofs; and 17 percent on fee collection. The 
remaining 33 percent was spent on such activities as enhancing 
facilities, protecting resources, and enforcing laws. The legislation 
authorizing the fee demonstration program permitted the participating 
agencies to spend fee revenues on all of these kinds of on-site 
activities as long as the expenditures contributed to enhancing the 
visitor experience or helped protect, preserve, or enhance resources. 
We reviewed the activities of nine demonstration sites in three 
different regions to verify that the fee revenues were actually being 
spent in accordance with the authorizing legislation for the program 
and agency spending priorities. We found no inconsistency. However, we 
did find that the Forest Service does not provide consistent 
information on where fee revenue is being spent. At each of the sites 
we reviewed, officials told us that deciding which category a 
particular expenditure falls into is a subjective judgment that is not 
necessarily consistent among sites. For example, the repair of an aging 
restroom facility could be categorized as either ``maintenance,'' or a 
facility enhancement that could fall into the ``other'' category. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ GAO-03-470 Recreation Fees, Page 3.
---------------------------------------------------------------------------
    The Forest Service does not have a process for measuring the impact 
of fee demonstration expenditures on reducing the deferred maintenance 
backlog. According to the Forest Service, the agency does not track the 
extent to which fee demonstration expenditures have been used for 
deferred maintenance for a number of reasons including the temporary 
nature of the program and because the agency is not required by the fee 
program legislation to measure the impact of fee demonstration revenues 
on deferred maintenance. Further, while acknowledging that it has a 
significant deferred maintenance problem, the agency has not developed 
a reliable estimate of its deferred maintenance needs...[L]ike the 
Forest Service, the Park Service has not yet developed a reliable 
estimate of its deferred maintenance needs. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ GAO-03-470 Recreation Fees, Page 4.
---------------------------------------------------------------------------
    The Forest Service keeps its fee demonstration revenue in two 
different Treasury accounts separate from its other appropriated funds, 
as required by the authorizing fee program legislation. Eighty percent 
of its fee revenues are maintained in an account for expenditure 
without further appropriation at the site where the fees were collected 
and 20 percent of its fee revenues in another account for expenditure 
on an agency-wide basis without further appropriation. Although the 
Forest Service tracks its fee revenues and expenditures separately from 
other appropriated funds, it does not accurately account for some fee 
collection costs. Specifically, the Forest Service does not report 
total revenues and fee collection costs related to discounts that 
vendors receive for selling recreation passes directly to the public. 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ GAO-03-470 Recreation Fees, Page 5.
---------------------------------------------------------------------------
    The Forest Service is responsible for managing over 192 million 
acres of public lands in the United States. In carrying out its 
responsibilities, the Forest Service traditionally has been a 
decentralized organization, in which its programs are administered 
through 9 regional offices, 155 national forests, and over 600 ranger 
districts (each forest has several districts). The Forest Service 
implemented the Recreational Fee Demonstration Program in Fiscal Year 
1996 with four demonstration sites that generated $43,000 during the 
year.1 The program has steadily grown over the past 5 years and covers 
87 sites, in 80 national forests, that generated over $35 million in 
Fiscal Year 2001. A demonstration site may consist of an individual 
forest; a group of forests, such as the National Forests in Texas; or a 
specific area or activity within a forest, such as Mount St. Helens 
National Volcanic Monument in the Gifford Pinchot National Forest in 
Washington. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ GAO-03-470 Recreation Fees, Page 5.
---------------------------------------------------------------------------
    On the national level, the most recently available information 
indicates that about one half of the fee revenues were being spent for 
visitor services and maintenance activities. However, because the 
agency relies on subjective determinations by local forest managers to 
categorize its expenditures, these determinations are not consistent 
among sites. Accordingly, the accuracy of program-wide information 
depicting the amounts of fee revenues spent for various categories is 
questionable. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ GAO-03-470 Recreation Fees, Page 7.
---------------------------------------------------------------------------
    The Nantahala River Gorge, one of the sites in the National Forests 
of North Carolina fee demonstration project, is a world-class 
whitewater river that attracts about 250,000 people annually. In Fiscal 
Year 2001, the site generated about $208,000 in fee revenues through 
user fees and special use permits for commercial outfitters. During 
that year, the site spent over $292,000 in fee revenues, which included 
revenues generated from prior years. Nantahala Gorge officials spent 
most of their fee revenues to upgrade or enhance facilities for serving 
visitors. For example, they spent about $150,000 by providing handicap 
accessibility, improving visitor safety, and eliminating erosion and 
sedimentation of the Nantahala River by constructing a concrete surface 
for launching boats and rafts on the river. The following figure shows 
the enhanced boat-launching area. <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ GAO-03-470 Recreation Fees, Page11.
---------------------------------------------------------------------------
    However, we found that the information that the Forest Service 
provides on categorizing expenditures is not consistently reported. 
First, the fee program managers do not allocate their expenditures into 
the spending categories in a systematic manner. Second, the Forest 
Service fee revenue expenditure reporting categories overlap.
    The Forest Service reports its fee demonstration expenditures using 
spending categories largely corresponding to those identified in the 
legislation authorizing the demonstration program. These categories are 
visitor services and operations, maintenance, interpretation and 
signing, facility enhancement, resource preservation and enhancement, 
security and enforcement, and cost of collection. However, the Forest 
Service officials stated that their accounting system is not set up to 
track expenditures into these categories. Local fee program managers, 
who compile the fee revenue expenditure data, use various methods to 
record their expenditures. At the sites we visited, we found that local 
managers relied on a variety of financial information sources such as 
project work plans and job code summary reports, as well as reviewing 
bills and receipts, as a basis for allocating their expenditures into 
the reporting categories. Further, one manager stated that he also 
interviewed his staff on work performed and the time they devoted to 
various tasks to estimate the amount of fee revenues spent in each 
reporting category. Accordingly, in the absence of forest managers 
having a consistent and systematic method for tracking and recording 
the expenditure amounts by spending category, the accuracy of the 
spending information in the agency's annual report is questionable. 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ GAO-03-470 Recreation Fees, Page16.
---------------------------------------------------------------------------
    Another concern affecting the spending information in the agency's 
annual report is the subjectivity of the spending categories 
themselves...expenditures for fee enforcement activities and fee 
collections may also be reported inconsistently. For example, we found 
that some sites we visited reported fee enforcement activities as part 
of their ``cost of collections.'' However, other sites reported fee 
enforcement activities as part of their expenditures for ``security and 
enforcement.'' These inconsistencies further affect the consistency of 
the Forest Service's reporting of where fee revenues are actually 
spent. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ GAO-03-470 Recreation Fees, Page17.
---------------------------------------------------------------------------
    The Forest Service has used a portion of its fee program revenues 
to help address its deferred maintenance backlog. However, the agency 
does not have a process for measuring how much has been spent on 
deferred maintenance or its impact on reducing its deferred maintenance 
needs. In addition, while the agency acknowledges that it has a 
significant deferred maintenance problem, it has not developed a 
reliable estimate of its deferred maintenance needs. As a result, even 
if the agency knew how much fee revenue it is spending on deferred 
maintenance, it would not know if its total deferred maintenance needs 
are being reduced. <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ GAO-03-470 Recreation Fees, Page19.
---------------------------------------------------------------------------
    However, even though the Forest Service is spending a portion of 
its fee revenues in this area, the agency does not specifically track 
how much it spent on deferred maintenance. So, expenditures like the 
trail maintenance at Nantahala Gorge are reported as a ``resource 
preservation and enhancement expenditure.'' Because the Forest Service 
uses this approach, the amount of agency expenditures for deferred 
maintenance cannot be determined nor can the agency determine whether 
the backlog of deferred maintenance needs is being reduced. 
<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ GAO-03-470 Recreation Fees, Page21.
---------------------------------------------------------------------------
    Forest Service officials told us that there are a number of reasons 
why the agency has not developed a process to track deferred 
maintenance expenditures from fee demonstration revenues. First, the 
agency chose to use its fee demonstration revenue to improve and 
enhance on-site visitor services rather than to invest its fee 
demonstration revenues for developing and implementing a system for 
tracking deferred maintenance spending. Second, the fee demonstration 
program is temporary and it is unclear at this time whether the 
Congress will make the program permanent. As a result, agency officials 
said that this uncertainty makes them question the wisdom of developing 
an additional process for tracking deferred maintenance. Finally, the 
agency was not required by the fee program legislation to measure the 
impact of fee revenues on deferred maintenance. They have chosen not to 
do so. <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ GAO-03-470 Recreation Fees, Page22.
---------------------------------------------------------------------------
    The federal agencies participating in the Recreational Fee 
Demonstration Program are required by the authorizing legislation to 
maintain fee revenues in separate Treasury accounts and to account for 
fee expenditures separately from other appropriated funds. Consistent 
with this requirement, the Forest Service accounts for its fee revenues 
and expenditures separately from other appropriated funds, even when 
using fee demonstration revenues along with other appropriated 
funds...Although the Forest Service generally tracks its fee revenues 
and expenditures separately from other appropriated funds, it does not 
accurately account for some fee collection costs. <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ GAO-03-470 Recreation Fees, Page24.
---------------------------------------------------------------------------
    Forest Service officials in the Pacific Southwest and Pacific 
Northwest regions did not record the vendor discount and did not count 
vendor discounts as part of their fee collection costs. Although the 
Forest Services accounting system should capture all revenues and 
expenses, program officials were not aware at the time the system was 
developed that vendor discounts should have been captured. Forest 
officials at the locations where this was occurring could not tell us 
the total amount of vendor discounts that the agency has permitted. 
Excluding vendor discounts from the cost of collection is also 
inconsistent with federal financial accounting standards and the U.S. 
Department of Agriculture financial manual. These standards require 
that total revenues and expenses be reported.
    The Forest Service practice of allowing vendor discounts results in 
inaccurate fee revenue and expenditure reporting. Because the vendor 
retains the discount rather than the Forest Service first collecting 
all fee revenues and then paying the vendor out of these revenues, the 
amount of fee revenues that the forest receives is reduced. In 
addition, the vendor discounts are not included as part of fee 
collection costs. Thus, both fee revenues and fee collection costs are 
underreported. Because of inaccurate reporting of fee revenues and 
collection costs, the Forest Service has no assurance that it is in 
compliance with the recreational fee demonstration legislation 
requirement only allowing 15 percent of fee revenues to be used for fee 
collection costs. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ GAO-03-470 Recreation Fees, Page 25.
---------------------------------------------------------------------------
    [I]t appears that the fee demonstration revenues were used to 
supplement rather than supplant recreation program funds. <SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ GAO-03-470 Recreation Fees, Page 30.
---------------------------------------------------------------------------
    Forest Service officials estimate that in 2001 the agency spent 
about $10 million of appropriated funds to support the fee 
demonstration program. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ GAO-03-470 Recreation Fees, Page 32.
---------------------------------------------------------------------------
    [T]he Forest Service accounting system does not track 
administrative overhead costs for the Recreational Fee Demonstration 
Program or any other individual program within the agency. As a result 
the agency cannot determine these costs. Fee program expenses that 
could be considered administrative overhead are comprised of the cost 
of collecting fees and expenditures for routine program operations 
provided at the fee demonstration sites...such as on-site management 
support, site operation and maintenance planning activities, and 
conducting on-site visitor surveys. In Fiscal Year 2001, the Forest 
Service spent approximately $5.1 million in fee revenues for fee 
collection. In addition, the national fee program manager estimates 
that a small percentage of the $8.6 million spent for fee program 
operations in Fiscal Year 2001 could also be considered administrative 
overhead. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ GAO-03-470 Recreation Fees, Page 32.
---------------------------------------------------------------------------
    The Forest Service pays for its annual national meeting of fee 
demonstration program managers and staff using other recreation 
appropriated funds although agency officials told us that some 
attendees may use fee demonstration program funds if it is part of 
their training program. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ GAO-03-470 Recreation Fees, Page 32.
---------------------------------------------------------------------------
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Robertson.
    The Committee will go ahead and proceed with the testimony 
from Mr. Funkhouser, and then we will go ahead and recess for 
the vote. Mr. Funkhouser, you may proceed.

STATEMENT OF ROBERT FUNKHOUSER, PRESIDENT, WESTERN SLOPE NO-FEE 
                           COALITION

    Mr. Funkhouser. Thank you, Mr. Chairman and distinguished 
members of the Subcommittee. I thank you for the privilege of 
testifying before you today regarding the Recreational Fee 
Demonstration Program. I am Robert Funkhouser, president of the 
Western Slope No-Fee Coalition.
    Fee demo has proven to be a failure in the Forest Service, 
Bureau of Land Management, and U.S. Fish and Wildlife Service. 
These fees were formerly limited to developed campgrounds and a 
few highly developed recreational sites carefully defined by 
Congress in the Land and Water Conservation Fund Act of 1965. 
Under fee demo, fees have been allowed to spread to hundreds of 
undeveloped and minimally developed areas. Americans are now 
being charged fees for such basic services as picnic tables, 
roads, trails, and for access to vast tracts of undeveloped 
public land. It is these new fees and fee retainage that have 
been so unpopular and controversial and that we are opposed to.
    Opposition to fee demo has been overwhelming and 
widespread. From New Hampshire to California, from Idaho to 
Arizona, Americans from all walks of life and all political 
persuasions are raising their voices against this program. 
Resolutions of opposition have been sent to Congress by the 
State Legislatures of Colorado, Oregon, California, and New 
Hampshire. Ten counties in western Colorado as well as 
counties, cities, and towns across the Nation have passed 
resolutions opposing this program. Hundreds of organized groups 
oppose fee demo, and civil disobedience to it is rampant. In 
California alone, for example, over 200,000 citations have been 
issued for refusal to pay these fees.
    These new fees are a new tax, and they are a double tax. 
And for those who enjoy motorized recreation, they are often a 
triple tax. These individuals pay sales tax for their vehicles, 
gas tax for their fuel, registration fees, and income tax to 
pay for land management. Now under fee demo they are required 
to pay an access tax to recreate on public lands.
    Fee demo is also a regressive tax because it discriminates 
against lower-income and working Americans.
    Fee Demo is a regressive tax also because it puts the 
burden of public land management on the backs of Americans who 
live adjacent to or surrounded by Federal land. The mandate 
that these local residents carry a heavier burden of funding of 
public land management agencies is unjust and unfair.
    Fee demo has been a financial failure as well. The General 
Accounting Office recently released findings of an audit 
concerning the fee demo program in the Forest Service. They 
found that in Fiscal Year 2001 the Forest Service used $10 
million of appropriated funds for administration of the fee 
demo program and to augment collection costs. This $10 million, 
almost one-third of their total fee revenues, had been 
previously unreported in the agency's annual report to 
Congress. The GAO also found that the agency had been 
underreporting the costs of administration, collection, and fee 
enforcement. Although the Forest Service claimed the program 
was a success, with gross revenue in Fiscal Year 2001 of $35 
million, the truth is the program brought in far less than $15 
million because the cost of overhead, collection, and 
enforcement was well over 50 percent.
    Until the GAO audits the BLM and Fish and Wildlife Service, 
their true financial results are uncertain, but as it stands, 
the net revenues for these two agencies in Fiscal Year 2001 are 
estimated to be less than $4 million.
    The public has rejected the notion of fee demo, and it is 
of little financial value to the American taxpayer.
    While we encourage Congress to support public lands with 
adequate appropriated budgets, this funding must go hand in 
hand with increased accountability. As long as the agencies are 
a black hole for appropriated funds, it makes no sense to 
supply them with an independent source of revenue, bypassing 
Congress and the public.
    Americans are passionate about their ownership of these 
lands. They feel that it is their heritage, as it was their 
parents' heritage and will be their children's. They pay taxes 
to maintain these lands, and they should not be treated as 
customers--or, worse, trespassers--on their own lands. Fee demo 
takes the ownership out of these lands and gives it over to the 
land management agencies. It is the change in relationship that 
is most disturbing. It makes trespassers out of taxpayers.
    The Recreational Fee Demonstration Program has been 
controversial since its inception. Fee demo is a poorly 
implemented bad idea. It is fundamentally flawed and cannot be 
fixed. It has been unpopular with the public, has not been 
financially worthwhile, and has decreased the agencies' 
accountability to Congress and the American people. The 
authorizing committees have never properly dealt with this 
program in the 7 long years it has been in place. It has been 
extended through the appropriations process time and time 
again. After 7 years, it is clear that fee demo should be 
allowed to expire next year as scheduled.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Funkhouser follows:]

              Statement of Robert Funkhouser, President, 
                     Western Slope No-Fee Coalition

    Mr. Chairman and distinguished members of the Subcommittee: Thank 
you for the privilege of testifying before you today regarding the 
Recreational Fee Demonstration Program. I am Robert Funkhouser, 
President of the Western Slope No-Fee Coalition.
    The Western Slope No-Fee Coalition is a broad-based group 
consisting of diverse interests including property rights advocates, 
hiking, boating and motorized interests, community groups, local and 
state elected officials, conservatives and liberals, Republicans and 
Democrats, and just plain citizens. We have members and member groups 
in 33 states. Our mission is to end the Recreational Fee Demonstration 
Program, to require more accountability within the land management 
agencies, and to encourage Congress to adequately fund our public 
lands.
    Fee Demo began as an appropriations rider in 1996 and has been 
extended four times through the appropriations process. It is beginning 
its eighth year as a ``demonstration'' without legislative hearings or 
congressional debate. It is time, and past time, to make the hard 
choices necessary concerning the future of this controversial program. 
While we can support making fee retention permanent in the National 
Parks only, and so testified on September 9th in the Senate in support 
of S.1107, the program as it relates to the Forest Service, Bureau of 
Land Management, and Fish and Wildlife Service must be allowed to 
expire as scheduled on October 1, 2004.
    The National Parks have a long history of charging entrance fees, 
an existing collection infrastructure, and a higher level of 
development and service that the public expects.
    As opposed to the implementation of the Recreational Fee 
Demonstration Program in the National Park Service, Fee Demo has proven 
to be a failure in the Forest Service, BLM, and Fish and Wildlife 
agencies. These fees were formerly limited to developed campgrounds and 
a few highly developed recreational sites carefully defined by Congress 
in the Land and Water Conservation Fund Act of 1965. Under Fee Demo, 
fees have been allowed to spread to hundreds of undeveloped and 
minimally developed areas. Americans are now being charged fees for 
such basic services as picnic tables, roads, and trails, and for access 
to vast tracts of undeveloped public land. It is these new fees that 
have been so unpopular and controversial, and that we are opposed to.
    Opposition to Fee Demo has been overwhelming and widespread. From 
New Hampshire to California, from Idaho to Arizona, Americans from all 
walks of life and all political persuasions are raising their voices 
against this program. Resolutions of opposition have been sent to 
Congress by the state legislatures of Colorado, Oregon, California, and 
New Hampshire. Ten counties in western Colorado as well as counties, 
cities, and towns across the nation have passed resolutions opposing 
the program. Hundreds of organized groups oppose Fee Demo, and civil 
disobedience to it is rampant. In California alone, over 200,000 
citations have been issued for refusal to pay the fees.
    These new fees are a new tax and they are a double tax. For those 
who enjoy motorized recreation they are often a triple tax. These 
individuals pay sales tax for their vehicles, gas tax for their fuel, 
extra registration fees, and income tax to pay for land management. Now 
under Fee Demo they are required to pay an access tax to recreate on 
their public lands.
    Fee Demo is a regressive tax. It puts the burden of public land 
management on the backs of Americans who live adjacent to or surrounded 
by federal land. In rural counties, such as mine in western Colorado, 
where 87% of the land is federally managed, public lands are an 
integral part of life. To mandate that those local residents carry a 
heavier burden of funding our land management agencies is unjust and 
unfair.
    Fee Demo is also a regressive tax because it discriminates against 
lower-income and working Americans. A Forest Service study showed that 
23 percent of lower-income Americans no longer visited our public lands 
due to the fees. It stated that 49 percent of all Americans regardless 
of income use the public lands significantly less due to the fees.
    Fee Demo is a financial failure as well. The General Accounting 
Office recently released the findings of an audit concerning the Fee 
Demo program in the Forest Service (GAO-03-470). They found that in 
FY2001 the Forest Service used $10 million of appropriated funds for 
administration of the Fee Demo program and to augment collection costs. 
This $10 million, almost one-third of their total fee revenues, had 
been previously unreported in the agency's annual report to Congress. 
The GAO also found that the agency had been under-reporting the costs 
of administration, collection, and fee enforcement. Although the Forest 
Service claimed the program was a success, with gross revenue in FY2001 
of $35 million, the truth is that the program brought in far less than 
$15 million because the cost of overhead, collection, and enforcement 
was well over 50%.
    Until the GAO audits the BLM and Fish and Wildlife Service Fee Demo 
programs, their true financial results are uncertain, but as it stands, 
the net revenues for these two agencies in FY2001 are estimated at less 
than $4 million.
    The public has rejected the notion of Fee Demo, and it is of little 
financial value to the American taxpayer.
    The Fee Demo program has changed the mission of the land management 
agencies from one of resource management and stewardship to one of 
revenue generation. It allows the three agencies to appropriate their 
own funds without any congressional oversight. This creates a perverse 
incentive to maximize revenue at the public's expense, and has resulted 
in excesses of implementation and enforcement such as charging fees for 
unimproved backcountry areas, forest wide fees, simple picnic tables, 
and parking.
    This lack of accountability is especially alarming in light of the 
Forest Service's history of financial problems. The GAO has labeled the 
agency's financial management practices as ``high risk'' time and time 
again. A recent report stated that ``Congress and the American people 
have no idea what the Forest Service's 30,000 employees do with the $5 
billion they are given in appropriated dollars annually. This leads to 
waste, fraud, abuse, and mismanagement.''
    While we encourage Congress to support public lands with adequate 
appropriated budgets, this funding must go hand in hand with increased 
accountability. As long as the agencies are a black hole for 
appropriated funds, it makes no sense to supply them with an 
independent source of revenue, bypassing Congress and the public. That 
is exactly what Fee Demo has done.
    Fee Demo had its origins in the agencies' claims of billions of 
dollars in backlogged maintenance, and in Congress's frustration that 
appropriated funds were not making it ``onto the ground.'' The Forest 
Service continues to starve maintenance and operations budgets by using 
specifically designated appropriated dollars for other projects. 
Reports are that between $10 million and $100 million has been taken to 
fund the Outsourcing Initiative. It was recently announced that 
maintenance and operations budgets would be raided to fund the Healthy 
Forest Initiative. The agencies continue to use the dollars 
appropriated for maintenance and operations for other purposes while 
still claiming an ever-growing backlog in these areas.
    GAO reports reveal that the agencies are unable or unwilling to 
identify and quantify the maintenance backlog, while continuing to 
build new facilities and infrastructure that only add to the 
maintenance needs of the future. Much of this is meant to commodify our 
public lands in order to sell them back to the tax-paying public. There 
are funds already allocated that, with reprioritization, can be used to 
pay down the maintenance backlogs in the three agencies and eliminate 
the very reason for this program. One obstacle to accomplishing this is 
the budget firewall that currently exists between funds for capital 
infrastructure and funds for operations and maintenance. The land 
managers should be encouraged to reprogram existing budget dollars to 
where they are most needed. The firewall must come down. Appropriated 
dollars should be used to maintain what we already have first, before 
building additional infrastructure. This budget reform, along with more 
congressional oversight, not less, is the only way to get the dollars 
onto the ground to benefit the land and the taxpayers that supply the 
funding.
    Fee Demo is an attempt to introduce the concept of ``user pays'' 
into the management of our public lands, completely reversing the 
previous system of public ownership supported by public funding. The 
Land and Water Conservation Fund Act of 1965 contained carefully 
crafted language defining what services were appropriate to charge fees 
for, such as developed campgrounds and mechanized boat launches. It 
also specified what services should not require a fee, such as roads, 
scenic overlooks, toilets, and picnic tables. Those guidelines served 
the American public well for over thirty years. Fee Demo threw all of 
that out when it allowed the land management agencies to charge for 
anything at all and keep the money without further congressional 
scrutiny. Allowing these three land management agencies to directly tax 
the public and retain those funds is fundamentally flawed.
    Under Fee Demo, it is not just the public that has suffered. The 
agencies are experiencing an increasingly strained relationship with 
local communities and the public as a whole. The land management 
agencies are a tentative guest in many communities to begin with. When 
they assume a heavy enforcement role, as Fee Demo forces them to do, it 
erodes any positive relationship that had been built. Gene Chandler, 
the New Hampshire Speaker of the House, has said, ``This program drives 
a wedge between local governments and public on one hand and the 
federal land management agencies on the other.'' The longer the wedge 
stays in place, the harder it will be to repair the damage. 
Volunteerism suffers and community involvement suffers.
    Fee Demo has been a failure. The 550 million acres administered by 
the Forest Service, BLM, and Fish and Wildlife Service are largely 
unimproved. They are the heritage of the citizens of this nation and 
have been maintained for generations through our taxes. Under Fee Demo, 
these citizens are being denied access to their lands unless they are 
able and willing to pay additional taxes in the form of fees.
    Americans are passionate about their ownership of these lands. They 
feel that it is their heritage, as it was their parents' and will be 
their children's. They pay their taxes to maintain these lands, and 
they should not be treated as customers--or worse, trespassers--on 
their own land. Fee Demo takes ownership of these lands out of the 
hands of the public and gives ownership to the land management 
agencies. It is this change in relationship that is most disturbing. 
The recent proposal by the agencies to create a ``National Pass'' for 
access to all public lands is exactly the sort of extreme measure that 
results from the change in relationship created by Fee Demo. It makes 
trespassers out of taxpayers.
    We call on Congress to hold the land management agencies truly 
accountable for the billions of dollars they receive every year, to 
create an avenue for appropriated dollars to reach the ground, and to 
limit the ability of the agencies to use maintenance and operations 
budgets for other uses. Fee Demo rewards the agencies for their 
shortcomings in these areas by giving them the ability to create an 
external source of revenue without congressional control.
    The Recreational Fee Demonstration Program has been controversial 
since its inception. Fee Demo is a poorly implemented bad idea. It is 
fundamentally flawed and cannot be fixed. It has been unpopular with 
the public, has not been financially worthwhile, and has decreased the 
agencies' accountability to Congress and the people. The authorizing 
committees have never properly dealt with this program in the seven 
long years it has been in place. It has been extended through the 
appropriations process time and time again. After seven years it is 
clear that Fee Demo should be allowed to expire next year as scheduled.
    Mr. Chairman and members of the Subcommittee, thank you for your 
consideration and for allowing me to testify before you today.

                               Appendix 1

                            Western Slope No-Fee Coalition,
                                        Norwood, CO, July 29, 2003.

         General Accounting Office Report GAO-03-470 Highlights

              TWO-THIRDS OF FS OPERATING COSTS UNREPORTED

    In what amounts to an absence of accountability on the part of the 
Fee Demo managers, the Forest Service has failed to report in its 
annual Fee Demo Progress Reports to Congress that (in 2001) close to 
$10 million in appropriated funds were used as a taxpayer subsidy to 
administer the program. (GAO p.32)
    This alone triples the $5 million which the Forest Service was 
declaring as the true cost of collection and administration for the 
program. This $15 million for cost of collection and administration 
represents, by itself, 43% of the Forest Service's reported Fee Demo 
gross revenue of $35 million in FY 2001. The Forest Service is limited 
by Congress to 15% for cost of collection expenses.

          THE FS DOES NOT ACCOUNT FOR ALL FEE COLLECTION COSTS

    The Forest Service does not report commissions to vendors for 
selling Fee Demo passes (GAO p.25-27). In the Adventure Pass fee 
program, the Pacific Northwest and Sedona's Red Rock fee sites in 
Arizona, among others, the Forest Service uses private vendors to help 
sell Fee Demo passes. In the Adventure Pass fee program, vendors buy a 
$5 daily pass discounted to $4 and a $30 annual pass for $27.
        ``Forest officials at the locations where this was occurring 
        could not tell us the total amount of vendor discounts that the 
        agency has permitted. Excluding vendor discounts from the cost 
        of collection is also inconsistent with federal financial 
        accounting standards and the U.S. Department of Agriculture 
        financial manual. These standards require that total revenues 
        and expenses be reported'' (GAO p.25-26).
    Although the Forest Service did not make vendor figures available 
to the GAO the figures were obtained, in 2002, through FOIA for the 
Adventure Pass fee program. Vendors sold 56% of all passes in FY 2001 
and those sales represent hundreds of thousands of dollars that had 
gone unreported as cost of collection in one fee area alone. It is 
unknown what this figure might be nationwide.

                  OTHER COSTS OF COLLECTION ARE HIDDEN

    A percentage of the $8.6 million categorized as program operations 
in the FY 2001 Annual Report to Congress is actually Fee Demo 
administrative overhead. This increases the cost of operating the 
program (GAO p.32).
    Local Fee program managers have been inconsistent with their 
categorizing of costs of collection. Costs related to fee enforcement 
and cost of collection had been reported in other categories. This also 
raises the costs of collection higher (GAO p.7 and p.17).

                 BOTTOM LINE: FEE DEMO IS NOT WORTH IT

    The Forest Service gross Fee Demo revenue for FY 2001 was over $35 
million (GAO p.6). We must subtract the reported cost of collection, 
5,051,000 (GAO p.9), the unreported use of $10 million of appropriated 
funds to subsidize the program (GAO p.32), the unreported vendor 
commissions nationwide, and a further $4.6 million (this represents the 
amount raised at some Fee Demo sites that already produced fee income 
[campgrounds, boat launches, etc.] before Fee Demo began in 1997) 
(April 2002 interim report to Congress on Fee Demo, p.23). The Forest 
Service claims the program is a success with gross revenues of $35 
million. The bottom line is that the program brings in far less than 
$15 million and the cost of overhead, cost of collection and the 
enforcement is well over 50 percent. The public has rejected the notion 
of Fee Demo and financially it is of little or no value to the American 
taxpayer.
    Until the General Accounting Office audits the Bureau of Land 
Management and U.S. Fish and Wildlife Service's Fee Demo programs the 
amount of cost of collection and the use of appropriated funds for 
program management in those agencies remains unclear. As it stands, the 
net revenues for the BLM and USFWS combined is less than $4 million.
    The Forest Service has pointed to backlog maintenance needs as its 
justification for the program. The General Accounting Office reports 
that the Forest Service puts less priority on paying down the backlog 
than other agencies and does not even know how much Fee Demo revenue 
they spend on the backlog. In fact, the agency does not know how large 
the backlog really is (GAO p.4, 19-20, 22). The Forest Service 
continues to put its emphasis instead on capital infrastructure.
                                 ______
                                 

                               Appendix 2

                            Western Slope No-Fee Coalition,
                                        Norwood, CO, July 29, 2003.

Cost Benefit Analysis of the Recreational Fee Demonstration Program of 
                   the BLM, USFWS, and FS for FY 2001

    All information is taken from the April 2002 Interim Report to 
Congress (IR), the 2001 Annual Report (AR), and the General Accounting 
Office report GAO-03-470 (GAO). References to the GAO report will 
include corresponding page numbers. Any other sources will be noted.

      U.S. Forest Service
Gross Revenue (AR)............       $35,261,047.00  ...................
Unreported Vendor Revenue Est.         +$951,468.00  ...................
 (GAO p.25-26)................
                               -----------------------------------------
    Total Gross Revenue FY           $36,212,515.00       $36,212,515.00
     2001.....................
Cost of Collection and
 Overhead:
    Reported Cost of                  $5,100,000.00  ...................
     Collection (AR)..........
Unreported Cost of Collection:
    Inconsistent Collection           $1,000,000.00  ...................
     Reporting Est. (GAO p.17)
    Administrative Overhead in          $860,000.00  ...................
     Operations (GAO p.32)....
    Vendor Costs Unreported
     Est. (GAO p.25-26):
        Enterprise Forest.....          $369,868.00  ...................
        Northwest Forest......          $201,600.00  ...................
        Southwest Region......          $180,000.00  ...................
        Other Vendor Costs....          $200,000.00  ...................
    Unreported Appropriated
     Funds Used:
        To Bolster Fee              +$10,000,000.00  ...................
         Revenues (GAO p.31-
         32)..................
Total Cost of Collection and         $17,911,468.00       $17,911,468.00
 Overhead.....................
Total Net Fee Demo Revenue....  ...................       $18,301,047.00
Pre Fee Demo LWCFA Revenues Included In FY 2000 Fee       -$4,600,000.00
 Demo Revenues (IR)................................
Revenues Collected Under the Land and Water Act
 Before and After Fee Demo (Campgrounds, etc.)
 Projected to FY 2001
Total Added Revenues From Fee Demo Tax--Forest            $13,701,047.00
 Service...........................................

          U.S. Forest Service Percentages
Percentage of Cost of Collection vs. Total Gross              50 percent
 Revenue...........................................
Percentage of Cost of Collection vs. Total Revenue.          130 percent
Percentage of Forest Service Under Reporting of              351 percent
 Cost of Collection and Overhead to Congress.......

             Bureau of Land Management
Gross Revenues (AR)................................        $7,543,274.00
Reported Cost of Collection........................       -$2,777,448.00
Unreported Cost of Collection......................       Amount Unknown
Vendor Costs Unreported............................       Amount Unknown
Unreported Appropriated Funds Used To Bolster Fee         Amount Unknown
 Revenues..........................................
Total Net Fee Demo Revenue.........................        $4,765,826.00
Pre Fee Demo LWCFA Revenues Included in FY 2000 Fee       -$2,200,000.00
 Demo Revenues (IR)................................
Revenues Collected Under the Land and Water Act
 Before and After Fee Demo (Campgrounds, etc.)
 Projected to FY 2001
Total Added Revenues From Fee Demo Tax--BLM........        $2,565,826.00

                  BLM Percentages
Percentage of Cost of Collection vs. Gross Revenues           37 percent
Percentage of Cost of Collection vs. Total Revenues          108 percent

           U.S. Fish and Wildlife Service

Gross Revenues (AR)................................        $3,828,451.00
Reported Cost of Collection (AR)...................          $944,847.00
Unreported Cost of Collection......................       Amount Unknown
Vendor Costs Unreported............................       Amount Unknown
Unreported Appropriated Funds Used To Bolster Fee         Amount Unknown
 Revenues..........................................
Total Net Fee Demo Revenues........................        $2,883,604.00
Pre Fee Demo LWCFA Revenues Included in FY 2000 Fee       -$1,900,000.00
 Demo Revenues (IR)................................
Revenues Collected Under The Land and Water Act
 Before and After Fee Demo (Campgrounds, etc.)
 Projected to FY 2001
Total Added Revenues From Fee Demo Tax--Fish and             $983,604.00
 Wildlife Service..................................

           U.S. Fish and Wildlife Service

Percentage of Cost of Collection vs. Gross Revenues           25 percent
Percentage of Cost of Collection vs. Total Revenues           96 percent


Notes:
Both revenues and cost of collection for passes sold by vendors have
  been going unreported by the Forest Service according to the GAO. This
  is in violation of Federal Financial Accounting Standards.
The Forest Service did not make records of Vendor sales available to the
  GAO for this audit, but these vendor records where obtained through
  FOIA for the Enterprise Forest. Vendor cost of collection and revenue
  were estimated based upon these numbers and percentages as well as
  research done in each region.
Administrative Overhead in Operations by using 10% of $8,600,000 (GAO
  p.32).
Inconsistent Collection Reporting is an estimate.
LWCFA Revenues represent revenues from sites like campgrounds that
  collected fees before fee demo under the LWCFA and will continue to
  charge fees after fee demo has expired. These funds will continue to
  go to the LWCFA and therefore should not be taken into account by fee
  demo revenues.
The GAO has not done an audit of the BLM or USFWS. The scale of use of
  appropriated funds to bolster fee revenues is unknown. It is also
  uncertain if cost of collection figures are complete.
Total net revenues for the BLM and USFWS is under $4,000,000.

                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Funkhouser.
    Mr. Holtz and Ms. Jones, we are going to recess. It will 
probably be about 30 minutes, my best estimate. I would 
appreciate it if you would stay around, and then we will 
immediately go to your statements as soon as we return.
    Thank you.
    [Recess.]
    Mr. McInnis. The Committee will come to order.
    What we are going to try to do is get your testimony in 
between votes. The schedule is kind of messed up now, even more 
than when I last departed.
    So we will go ahead and proceed, Mr. Holtz, if you wouldn't 
mind giving us your statement. You may proceed, sir.

 STATEMENT OF PATRICK J. HOLTZ, SENIOR LEGISLATIVE ASSISTANT, 
    GOVERNMENT RELATIONS, AMERICAN MOTORCYCLIST ASSOCIATION

    Mr. Holtz. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, my name is 
Patrick Holtz, and I am senior legislative assistant of the 
American Motorcyclist Association, an organization with over 
270,000 motorcycle enthusiast members. The AMA appreciates the 
opportunity to provide testimony regarding the Forest Service's 
Recreational Fee Demonstration Program.
    The reason for AMA's presence today is twofold: First, the 
AMA would like to formally announce its conditional support for 
making the Recreational Fee Demonstration Program permanent. 
Second, we are here to encourage this Committee to improve the 
program in specific areas within the United States Forest 
Service before this significant designation is made.
    In previous testimony provided to this Committee, the AMA 
asserted that there are several essential principles which must 
be contained in any recreation fee proposals. They are: that 
the fees are equitable, that the fee system is efficient, that 
the fees are convenient for the recreationist, that the fee 
system is coherent and integrated, and that all fees collected 
are maintained and used at the site where the fee was 
generated.
    The AMA was pleased to read in the United States General 
Accounting Office's April 2003 study that the U.S. Forest 
Service has made a good-faith effort in upholding these 
principles. However, as with any program of this size and 
scope, there are bound to be problems. Indeed, the GAO study is 
revealing, especially in its comparison of the Forest Service's 
program to the National Park Service.
    As a basic premise, it would seem that the GAO study 
confirms that all fees collected are maintained and used at the 
site where the fee was generated. According to the GAO, local 
forest managers retain be 90 and 100 percent of the fee 
demonstration revenue at the sites where the fees are 
collected.
    However, the most striking revelation in the GAO study is 
that, ``the Forest Service does not provide consistent 
information on where fee revenue is being spent.'' The AMA 
finds it specifically alarming that the Forest Service does not 
catalogue the recreation fee expenditures on deferred 
maintenance, even though it has a significant backlog. The 
Forest Service cites the temporary nature of the program and 
the authorizing legislation.
    Meanwhile, the NPS has not used this as an excuse for 
inaction. According to the GAO study, the NPS spent almost 35 
percent of its fee demonstration program money on maintenance 
in Fiscal Year 2001, addressing a multi-billion-dollar backlog.
    Specifically, the GAO cites the Angeles and San Bernardino 
National Forests, whose primary source of revenue is the 
Adventure Pass. The Adventure Pass is required for vehicle 
access, including motorcycles, to the National Forests in 
Southern California. The annual Adventure Pass costs $30, or $5 
for a daily pass. As opposed to addressing deferred maintenance 
needs, these National Forests spent 80 percent of their revenue 
on ``visitor services, and maintaining operations, maintenance 
of facilities, and for providing interpretive services.'' This 
is meritorious, but shouldn't land managers address the 
specific long-term needs of those who are paying the fees?
    In addition, the Forest Service cannot be credited for the 
deferred maintenance it is conducting under the Recreational 
Fee Program. For example, land managers at the Nantahala River 
Gorge in North Carolina's National Forest used recreation fee 
money to address their deferred maintenance needs by 
rehabilitating a trail. However, it was catalogued as 
``resource preservation and enhancement expenditure,'' 
according to the GAO. Therefore, it is not credited under the 
Forest Service's daunting backlog.
    If the Recreational Fee Program becomes permanent, the 
Forest Service must develop a system that credits those who 
address maintenance.
    The Recreational Fee Demonstration Program has enormous 
potential to enhance recreation opportunities. But to be 
successful, it has to receive full public support. In order to 
receive that support, the Forest Service must think boldly and 
implement a fee system that officially accounts for its 
deferred maintenance needs, rewards land managers who work on 
those needs, and provide a coherent and integrated experience 
for the user. The AMA looks forward to working with the Forest 
Service and Members of Congress in applying these principles to 
a permanent Recreational Fee Program.
    Thank you.
    [The prepared statement of Mr. Holtz follows:]

    Statement of Patrick J. Holtz, Senior Legislative Assistant of 
        Government Relations, American Motorcyclist Association

    Mr. Chairman and Members of the Committee, my name is Patrick 
Holtz, Esq. and I am Senior Legislative Assistant of the American 
Motorcyclist Association (AMA), an organization with over 270,000 
motorcycle enthusiast members. The AMA appreciates the opportunity to 
provide testimony regarding the Forest Service Recreational Fee 
Demonstration Program (RFDP).
    The reason for AMA's presence today is two-fold. First, the AMA 
would like to formally announce its conditional support for making the 
Recreational Fee Demonstration Program permanent. Second, we are here 
to encourage this committee to improve the program in specific areas 
within the United States Forest Service (USFS), before this significant 
designation is made.
    In previous testimony provided to this committee, the AMA asserted 
that there are several essential principles, which must be contained in 
any recreation fee proposal. They are:
    <bullet> That the fees are equitable, and aimed at recovering 
costs where the services provided, or the facilities used, would 
otherwise represent significant costs to the taxpayers;
    <bullet> That the fee system is efficient, costing the least 
amount practical to administer;
    <bullet> That the fees are convenient for the recreationist, so 
that voluntary compliance is readily achievable;
    <bullet> That the fee system is coherent and integrated, so that 
overlapping charges are minimized and federal, state and local fees are 
integrated where appropriate; and
    <bullet> All fees collected are maintained and used at the site 
where the fee was generated.
    The AMA was pleased to read in the United States General Accounting 
Office's (GAO) April 2003 study that the United States Forest Service 
has made a good faith effort in upholding these principles. However, as 
with any program of this size and scope, there are bound to be 
problems. Indeed, the GAO study is revealing, especially in its 
comparison of the Forest Service program to that of the National Park 
Service (NPS).
    As a basic premise, it would seem that the GAO study confirms that 
all fees collected are maintained and used at the site where the fee 
was generated. According to the GAO ``local forest managers retain 
between 90 and 100 percent of the fee demonstration revenue at the 
sites where fees are collected.''
    However, the most striking revelation in the GAO study is that, 
``the Forest Service does not provide consistent information on where 
fee revenue is being spent.'' The AMA finds it specifically alarming 
that the Forest Service does not catalog the recreation fee 
expenditures on ``deferred maintenance'' even though it has a 
significant backlog. The Forest Service cites the ``temporary nature of 
the program'' and the authorizing legislation.
    Meanwhile, the NPS has not used this as an excuse for inaction. 
According to the GAO study the NPS spent almost 35% of its fee 
demonstration revenues on maintenance in Fiscal Year 2001, addressing a 
multi-billion dollar backlog. This is relevant because the motorized 
community for the most part does not benefit from this at the NPS. It 
is currently illegal for anyone to ride a motorcycle on any trails on 
National Park Service land. While the NPS has taken advantage of the 
program to address deferred maintenance needs, the Forest Service has 
focused on visitor services.
    Specifically, the GAO cites the Angeles and San Bernardino National 
Forests, whose primary source of revenue is the ``Adventure Pass.'' The 
Adventure Pass is required for vehicle access, including motorcycles, 
to the national forests in Southern California. The annual Adventure 
Pass costs $30 ($15 with senior or disability discounts) or $5 for a 
daily pass. As opposed to addressing deferred maintenance needs, these 
national forests spent 80 percent of their revenue on ``visitor 
services, and maintaining operations, maintenance of facilities, and 
for providing interpretive services.'' This is meritorious. But 
shouldn't land managers address the specific long-term needs of those 
who are paying the fees?
    In addition, the Forest Service cannot be properly credited for the 
deferred maintenance it is conducting under the Recreational Fee 
Program. For example, land managers at the Nantahala River Gorge in the 
North Carolina National Forest used recreation fee money to address 
their deferred maintenance needs by rehabilitating a trail. However, it 
was cataloged as ``resource preservation and enhancement expenditure'' 
according to GAO. Therefore, it is not credited under the Forest 
Service's daunting backlog.
    The Allegheny National Forest (ANF) recognizes the specific needs 
of off-highway vehicles (OHV). OHV use is the fastest growing 
recreational activity on the Allegheny National Forest. The annual 
economic impact in Pennsylvania exceeds $17,000,000 annually. In order 
to maintain high quality experiences, the ANF returns $200,000 annually 
first to the maintenance of existing trails, then if funds are 
available to begin planning for the expansion of trails. If the 
Recreational Fee program becomes permanent, the Forest Service must 
develop a system that credits those who address maintenance.
    The Recreational Fee Demonstration Program has enormous potential 
to enhance recreation opportunities. But, to be successful it has to 
receive full public support. In order to receive that support, the 
Forest Service must think boldly and implement a fee system that 
efficiently accounts for its deferred maintenance needs; rewards land 
managers who work on those needs, and provide a coherent and integrated 
experience for the user. The AMA looks forward to working with the 
Forest Service and Members of Congress in applying these principles to 
a permanent Recreational Fee Program.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Holtz.
    Ms. Jones?

 STATEMENT OF RAQUEL JONES, SMALL BUSINESS OWNER, LYTLE CREEK, 
                           CALIFORNIA

    Ms. Jones. Thank you, Mr. Chairman.
    Mr. McInnis. And I want to let you know I appreciate that 
you came all the way from California.
    Ms. Jones. Oh, thank you.
    Mr. McInnis. That is a long trip.
    We should also let everyone know that the reason there has 
been some disruption is because of the pending hurricane. So 
what they are trying to do is wrap it up, and this is helpful 
advice to those of you, including my friend from California and 
elsewhere.
    Ms. Jones. I can't wait to get back.
    Mr. McInnis. I would head for the airport as soon as you 
are finished.
    [Laughter.]
    Mr. McInnis. You may proceed.
    Ms. Jones. Thank you, Mr. Chairman and all the members of 
this Committee. It is an honor and a privilege for me to be 
invited to be part of this hearing to discuss the Recreation 
Fee Demonstration Program. I represent the small community of 
Lytle Creek, California, which is located inside the boundary 
of the San Bernardino National Forest.
    My husband and I moved to Lytle Creek in December of 1996. 
We bought an old rock house which is a historic landmark. We 
fell in love with the surroundings--the beautiful green 
mountains, the stream, the birds singing in the trees, the wind 
blowing, the beautiful flowers, and the quiet place.
    When summer came it was very different. People came from 
the city to get away from the heat. They were everywhere. The 
creek was full of trash; the garbage was all over. There were 
weeds all over and pieces of glass and metal left from a car 
crash. The first impression was nothing but garbage. I came 
home frustrated, thinking what could I do to communicate to the 
public to take care of the area.
    In June of 1998, I read an article in the newspaper about 
community cleanup, and I started contacting people to see if I 
could get help. The county supervisors' office provided me with 
two dumpsters. It put a flyer in the local newspaper to let 
everyone in the community know where to put their trash. But it 
was not enough. The dumpsters were full to the top in less than 
half an hour.
    After that, I decided to become an Adventure Pass vendor 
because my house was right on the road, and I would be able to 
be in direct contact with the public. Most of the people that 
come to the canyon are Spanish-speaking people, and I am able 
to communicate with them because Spanish is my first language. 
I put up a bulletin board with beautiful wildlife photos and 
signs in Spanish telling them not to litter and destroy the 
forest. Over the years, I have made a great impact in educating 
the public because I speak the language. I target the kids 
because they are the future. I tell them that Lytle Creek will 
still be here for you when you come back with your children if 
you take care of it. I educate the kids by handing out cartoon 
papers with pictures they can relate to and handing out trash 
bags.
    The people have told me that Lytle Creek looks cleaner 
because everyone is cleaning up after themselves. When they buy 
their Adventure Pass from me, they ask me for their trash bag. 
The Rangers go by and pick up the trash bags, and they are 
already full. The people are for the Adventure Pass. The people 
have been asking if there will be more improvements such as 
picnic tables, ramps for the handicapped, parking spaces, 
bicycle trails, water, better and cleaner restrooms. We want to 
keep the Adventure Pass long enough to be able to get some of 
these improvements.
    Lytle Creek is not the only community that is in the same 
condition. I have spoken with Tom McIntosh who lives in Forest 
Falls. He is a realtor who would not show his clients the 
National Forest in his community before the Adventure Pass 
because it was so full of trash and graffiti. Now he will tell 
you it is the first place he takes his clients because he is so 
proud of its beauty.
    I have spoken with Dee Hansen, who lives inside the Angeles 
National Forest. Dee is 82 years old and bought her own 
sandblaster to remove graffiti. She and her husband put 55-
gallon drums out in her community to collect the trash and 
emptied the cans every week. She finally put her house up for 
sale because the community was becoming so undesirable. Then, 
like me, she became an Adventure Pass vendor. She gives people 
trash bags and talks to them about the forest. There are more 
patrols in the forest now, the area is clean, and I believe 
crime has been reduced. The community and the visitors are very 
happy with the Adventure Pass Program, and Dee has taken down 
her ``For Sale'' sign.
    I want the land to be a benefit for all people--for the 
people from the community, for the visitors, and for the 
children. Thousands of people come to Lytle Creek, and there is 
only one small picnic area. People bring their own tables and 
their own grills because the picnic area is fully and they want 
to come to enjoy the creek. They need restrooms. They need a 
place to put their trash so it does not end up in the creek. We 
have been able to do these things because of the Adventure 
Pass. If the Adventure Pass goes away, Lytle Creek will be the 
same as it was before, and soon there will not be a place for 
them to recreate because everything will be destroyed.
    I have big dreams. I want Lytle Creek to be beautiful. I 
want my daughters to be proud to say they live in Lytle Creek. 
If it was not for the support my husband and my daughters give 
me, I would not be able to do what I am doing for my community.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Jones follows:]

  Statement of Raquel Jones, Private Citizen, Lytle Creek, California

    Mr. Chairman: It's an honor and a privilege for me to be invited to 
be part of this hearing to discuss the Recreation Fee Demonstration 
Program. I represent the small community of Lytle Creek, California, 
which is located inside the boundary of the San Bernardino National 
Forest.
    My husband and I moved to Lytle Creek in December of 1996. We 
bought an old rock house which is a historic landmark. We fell in love 
with the surroundings--the beautiful green mountains, the stream, the 
birds singing in the trees, the wind blowing, the beautiful flowers, 
and the quiet place.
    But when summer came it was very different. People came from the 
city to get away from the heat. They were everywhere. The creek was 
trashed and there was garbage all over. The trees were carved with 
names. There were weeds all over and pieces of glass and metal left 
from a car crash. The first impression was nothing but garbage. I came 
home frustrated, thinking what could I do to communicate to the public 
to take care of the area.
    In June of 1998 I read an article in the newspaper about community 
cleanup and I started contacting people to see if I could get help. The 
County Supervisors' Office provided me with 2 dumpsters. I put a flyer 
in the local newspaper to let everyone in the community know where to 
put their trash. But it wasn't enough. The dumpsters were full to the 
top in less than half an hour.
    After that I decided to become an Adventure Pass vendor because my 
house was right on the road and I would be able to be in direct contact 
with the public. Most of the people that come to the canyon are 
Spanish-speaking people and I am able to communicate with them because 
Spanish is my first language. I put up a bulletin board with beautiful 
wildlife photos and signs in Spanish telling them not to litter and 
destroy the forest. Over the years I have made a great impact on 
educating the public because I speak the language. I target the kids 
because they are the future. I tell them that Lytle Creek will still be 
here for you when you come back with your children if you take care of 
it. I educate the kids by handing out cartoon papers with pictures they 
can relate to and handing out trash bags.
    The people have told me that Lytle Creek looks cleaner because 
everyone is cleaning up after themselves. When they buy their Adventure 
Pass from me they ask me for their Trash Bag. The Rangers go by and 
pick up the trash bags and they are already full. The people are for 
the Adventure Pass. The people have been asking if there will be more 
improvements such as picnic tables, ramps for the handicapped, parking 
spaces, bicycle trails, water, better and cleaner restrooms. We want to 
keep the Adventure Pass long enough to be able to get some of these 
improvements.
    Lytle Creek is not the only community that is in the same 
condition. I have spoken with Tom McIntosh who lives in Forest Falls. 
He is a Realtor who would not show his clients the National Forest in 
his community before the Adventure Pass because it was so full of trash 
and graffiti. Now he will tell you it is the first place he takes his 
clients because he is so proud of its beauty.
    I have also spoken with Dee Hansen, who lives inside the Angeles 
Forest at Mt. Baldy Village. Dee is 82 years old and bought her own 
sandblaster to remove graffiti. She and her husband put 55 gallon drums 
out in her community to collect the trash and emptied the cans every 
week. She finally put her house up for sale because the community was 
becoming so undesirable. Then, like me, she became an Adventure Pass 
vendor. She gives people trash bags and talks to them about the Forest. 
There are more patrols in the Forest now, the area is clean, and the 
gang bangers are gone. The community and the visitors are very happy 
with the Adventure Pass Program and Dee has taken down the ``For Sale'' 
sign.
Summary
    I want the land to be a benefit for all people--for the people from 
the community, for the visitors, and for the children. Thousands of 
people come to Lytle Creek and there is only one small picnic area. 
People bring their own tables and their own grills because the picnic 
area is full and they want to come to enjoy the creek. They need rest 
rooms and they want them cleaned. They need a place to put their trash 
so that it doesn't end up in the creek. We have been able to do these 
things because of the Adventure Pass. If the Adventure Pass goes away, 
Lytle Creek will be the same as it was before and soon there won't be a 
place for them to recreate because everything will be destroyed.
    I have big dreams. I want Lytle Creek to be beautiful. I want my 
daughters to be proud to say they live in Lytle Creek. If it wasn't for 
the support my husband and my daughters give me, I wouldn't be able to 
do what I am doing for my community.
                                 ______
                                 
    Mr. McInnis. Thank you, and, again, I appreciate the 
travel.
    In your statement, which I appreciate--I am not sure. Are 
you for or opposed to the Recreational Fee Program?
    Ms. Jones. I am for the benefit of all the people.
    Mr. McInnis. So you support the program?
    Ms. Jones. For the program as long as the program will 
benefit the people. There are a lot of improvements that we 
need to accomplish. But as you know, things do not get done 
overnight.
    Mr. McInnis. So you support the----
    Ms. Jones. I support the Adventure Pass.
    Mr. McInnis. All right. Thank you.
    Mr. Thompson, let me ask you very briefly: In your 
testimony, you said that fee demo funds are making a crucial 
difference in and reducing maintenance backlog. Can you tell me 
how much fee demo revenues have gone to pay down the deferred 
maintenance backlog in the recent fiscal years, number one? 
And, number two, has the Forest Service nationally prioritized 
paying down the deferred recreation maintenance backlog before 
constructing new facilities when expanding fee demo revenues?
    Mr. Thompson. Thank you, Mr. Chairman. Our backlog of 
recreation facility maintenance is estimated to be about $500 
million. In Fiscal Year 2002, we invested about 23 percent of 
the fee collections in maintenance. Some of that was probably 
deferred maintenance, backlog maintenance. Some of it was 
annual maintenance.
    In this program, we did not try to distinguish between the 
two. That was not the intent of the program. At this point we 
are working hard to look out over the next few years to figure 
out a way to accurately catalogue the maintenance backlog that 
exists and determine how to take that on.
    The fee program has certainly provided a tool to do the 
backlog where the people in the communities feel that it ought 
to be done. So I think we are making good progress on it, and 
there is certainly, as has been pointed out by the GAO, some 
need to clarify the categories and how we account for it. But 
that was not, I do not think, a serious issue with regard to 
the demonstration. That is a bigger issue outside the 
demonstration program.
    Mr. McInnis. Thank you.
    Mr. Hill, very briefly, did you find that the backlog was, 
in fact, a priority with the Forest Service in your review?
    Mr. Hill. Well, we found that, when we looked at the 
expenditure, they were spending the money consistent with the 
legislative intent of the program. I think in our report we 
said that a larger portion of the fund, 29 percent, was going 
toward visitor services, but 21 percent was going for 
maintenance.
    Mr. McInnis. Mr. Funkhouser, I am curious about your 
statement on double taxation. I would like you to, if you can, 
distinguish between, say, for example, a hunting license--you 
live in the State of Colorado. You pay taxes. And yet because 
you are a user--they do not charge everybody a hunting license 
fee. They charge the people who hunt a hunting license fee. Or 
in the city of Montrose, for example, you may live there, you 
pay your taxes, you pay your property taxes, and yet when you 
go and park your car, you still pay a parking meter.
    Is all of that reflective of double taxation? And if, in 
fact, that is--by your definition, I think it probably does fit 
that double taxation--then I am confused on your argument on 
double taxation, number one.
    Number two, the problem I see out there, one, I think it 
has been pretty poorly administered, but the other problem is 
this land is being loved to death. I think Mrs. Jones' comments 
are very reflective of what we are seeing on our public lands. 
We have lots of people coming in, lots of people using these 
lands. And I guess the most--in my opinion, if it is 
administered properly, the most appropriate way to have it paid 
for is let the user, the primary beneficiary, help with that. 
The general population helps a lot, but we do not have--we are 
short of funds. Our big crisis out there on these Federal lands 
is giving them the love that they deserve.
    So if you would very briefly answer the double taxation, 
and then tell me--and maybe I did not understand your statement 
correctly. Do you disagree with user fees? Go ahead.
    Mr. Funkhouser. Mr. Chairman, these public lands have been 
supported through taxpayer dollars as long as they have been in 
place. I feel that it is a double tax to charge, to allow the 
land management agencies to retain fees to supplement their 
budget. Traditionally----
    Mr. McInnis. I have got to--let me, I'm the Chairman. And 
the only reason I am interrupting is not to be rude, but I have 
got about three and a half minutes left.
    Mr. Funkhouser. Fine, sir.
    Mr. McInnis. And I want to get these answers. But you are 
not distinguishing it. In your book, would the parking meters 
in downtown Montrose be double taxation?
    Mr. Funkhouser. I actually have heard that argument before, 
and I just have a hard time relating parking meters to our 
public lands.
    Mr. McInnis. How about hunting licenses?
    Mr. Funkhouser. Hunting licenses, I believe the money goes 
directly to the State Division of Wildlife in Colorado to 
manage the herd.
    Mr. McInnis. To manage the maintenance and so on.
    Mr. Funkhouser. In a hunting license situation, you are 
taking a resource off the land, as opposed to a recreation fee 
or access to public lands are clearly----
    Mr. McInnis. OK. Let me briefly get the second response, 
because I want to ask Mr. Robertson and Mr. Holtz very quickly.
    Mr. Funkhouser. Certainly.
    Mr. McInnis. And that was the user fee. Do you support a 
user fee under any conditions, or you do not support a user fee 
at all?
    Mr. Funkhouser. Oh, we actually have no problem with a user 
fee under the Land and Water Conservation Fund Act. For 
instance, campgrounds with improved----
    Mr. McInnis. How about on the Forest Service user fee if 
properly administered?
    Mr. Funkhouser. Fee demo itself I think is--well, we might 
be getting to----
    Mr. McInnis. No, no. Generally. User fee, properly 
administrated, Forest Service land.
    Mr. Funkhouser. No, absolutely, I do not support that.
    Mr. McInnis. OK. Thank you.
    Mr. Robertson and Mr. Holtz, I want to clarify your 
statement. Do you want to see this amended or ended?
    Mr. Holtz. I think we want to see it amended.
    Mr. McInnis. Mr. Robertson?
    Mr. Robertson. Yes, amended or ended. We want to see the 
problems fixed that we discussed in 2001, and also see, if that 
cannot be done, the end of the program.
    Mr. McInnis. OK. And if you have further clarification, any 
of the parties that I have spoken to, that would help answer my 
questions--I am sorry to cut you off, but I do not want to miss 
my vote. So if you have additional comments, you are welcome to 
submit those to the record to help clarify your answer or to 
help me answer my question.
    OK. We are going to stand in recess again and hopefully be 
back here in about 15 or 20 minutes, I hope. Be patient. Thank 
you.
    [Recess.]
    Mr. McInnis. The Committee will come back to order.
    Because of the unusual circumstances involving the 
approaching hurricane, with the exception of one, I think most 
of the members are already departing for the airport. But Mr. 
Inslee, the Ranking Member, does wish to ask some questions of 
the panel. So I would ask the panel's indulgence. I expect Mr. 
Inslee to be here temporarily.
    At the conclusion of Mr. Inslee's questions, although I 
will not be here, the Committee will automatically stand in 
adjournment. So if the panel would just sit tight, I expect Mr. 
Inslee. If, under the circumstances, Mr. Inslee does not show 
up in the next 10 or 15 minutes, then the Committee will stand 
in adjournment.
    I do want to say to all of you that I appreciate it very 
much. This program is very important, I think, but we have got 
to do it right. In my particular district, which Mr. Funkhouser 
is aware of, the Forest Service has lost the public's support. 
And, of course, I represent the public support in that 
district, and since it is not there, that program has real 
problems. But somehow we have got to address--as Mrs. Jones 
addressed in her statement, this land is being loved to death, 
and somehow we have got to figure out--we cannot just--I know 
the standard response out there is, well, get more money out of 
the general fund or the Forest Service needs to put more in. We 
cannot keep up with the usage on these parks. Somebody is going 
to have to pay for it, and in my opinion, the people who 
receive the most direct benefit are going to have to help. And 
we get lots of volunteer help. In our district, as Mr. 
Funkhouser is probably aware, we have lots of volunteers. They 
come out. And Mrs. Jones spoke about how they hand out trash 
bags as volunteers and put out trash cans. But sometimes it is 
just not enough to put that infrastructure in place, so we have 
to come to some type of program that will address the needs, 
will be properly administrated, but will be fair to the users. 
And I count myself amongst them.
    So we will go ahead and just wait here temporarily. I would 
expect Mr. Inslee, and, again, I thank the panel for making the 
effort to come today.
    [Recess.]
    Mr. Tancredo. [Presiding.] The Committee will come back to 
order.
    We will wait for Representative Inslee, but in the 
meantime, just one or two questions for the panel that I have. 
What we first were interested in is knowing, from the non-
government witnesses especially, what specific changes would 
you present for us, for our review, and what specific changes 
would you like to see? And for Mr. Funkhouser, if you are 
opposed to the rec fee for Forest Service but OK with the Park 
Service, how come that is the case?
    So any order we want to start in.
    Mr. Robertson. As I said in my testimony, I think that the 
primary use of these fees should be for maintenance, and I 
think that if the broad scope of the fees is substantially 
reduced, the use of the fees is substantially reduced, that 
would be one of the primary changes that would benefit the 
public and would also start to generate some public support.
    Mr. Tancredo. With all money being spent on deferred 
maintenance?
    Mr. Robertson. Yes, entirely limited to public 
maintenance--or maintenance for public services. Right now the 
expansion of fees to law enforcement, to using fees outside of 
the parks and forests for other projects that are fairly 
peripheral, including trash collection, including paving of 
public roads or State highways, I think is inappropriate. So I 
think the Forest Service especially would benefit from a 
limitation of those uses.
    Mr. Tancredo. Thank you.
    Mr. Holtz?
    Mr. Holtz. Actually, I am in agreement with what Mr. 
Robertson said.
    Mr. Tancredo. Either turn on the microphone or get it 
closer there.
    Mr. Holtz. I think what we need to do is tighten the scope 
of the authorizing legislation, look at deferred maintenance. 
We need to know what the deferred maintenance needs are. I do 
not think the Forest Service or the National Park Service knows 
the answer to that. And that should really be a condition 
precedent to reauthorization. And when in conflict, we think, 
between visitor services and deferred maintenance, we believe 
that deferred maintenance should take precedence.
    Mr. Tancredo. Thank you, Mr. Holtz.
    Mr. Funkhouser?
    Mr. Funkhouser. Thank you. The Park Service implementation 
of fee demo, the fees there have been around for many decades. 
There is a greater amount of amenities and services expected in 
the National Parks. The difference between the parks and the 
other agencies is that new fees in the other three agencies as 
opposed to existing fees in the parks, the parks have 
traditionally charged entrance fees for those amenities and 
services. Outside the Forest Service, BLM, Fish and Wildlife 
Service, fee demo represents introducing new fees for 
unimproved areas, for picnic tables, for roads, for many other 
services.
    The other problem, I think, that the other three agencies 
have in regards to fee demo is fee demo brings with it the 
ability for the first time in those agencies to retain revenues 
that they collect from the public. In the Park Service, we feel 
that that can be controlled. The incentives that this creates 
within the agencies is to maximize revenues. In other words, in 
the Park Service they have doubled or tripled entrance fees, 
and they have a multi-layering of fees, like entrance fees and 
then back-country use fees, trail head parking fees, 
transportation fees. It is that sort of incentive in the Park 
Service that I think can be controlled with congressional 
oversight.
    In the other agencies where this program brings in new fees 
and allows the agencies to retain, for the first time to charge 
and to retain fees and to appropriate--we feel appropriate 
their own funds without congressional oversight is a problem, 
and that is where the incentive comes in. That is why the 
agencies, those three agencies, have been so aggressive in 
their implementation and enforcement of the fees.
    Mr. Tancredo. Thank you.
    Mr. Thompson, how would you respond to that?
    Mr. Thompson. You know, the demonstration program has been 
an excellent opportunity to try a lot of different things. It 
has not been without problems, and that is why it was called a 
demonstration program.
    I think over the last few years, we have done an excellent 
job on an interagency basis to identify what elements we really 
need to concentrate on in the long term to have an effective 
fee program on an interagency basis. And I believe that that is 
essential in the years ahead to keep up with the pace of use 
and facilities across the United States.
    The elements that are so key to an effective program are, 
one, making sure that it is providing for the benefit of the 
public; it has got to be fair; it has got to be equitable. It 
certainly has got to be an efficient program where a lot of 
money is not being spent in just collecting money, and so we 
need to correct those things.
    It needs to be consistent so that the public can understand 
it. I think it has got to be convenient, and certainly we feel 
working with local publics in a collaborative way to make 
progress is where it is at. We will and have shown, I think, 
that we can be accountable for the program, and I think in the 
years ahead, if the program continues, it will be the one tool 
that people at the local level will be able to say we are 
making a difference.
    And so, in my mind, it is those elements that really 
respond to this issue.
    Mr. Tancredo. Thank you, Mr. Thompson. I understand that 
you have to make a plane.
    Mr. Thompson. Yes, and I really so much apologize for that. 
But Dave Holland, who is the Director of Recreation, 
Wilderness, and Heritage, is here and he will respond to any 
questions. And I really apologize for having to leave.
    Mr. Tancredo. That is quite all right. We understand.
    Mr. Thompson. Thank you.
    Mr. Tancredo. The Chairman had to do the same.
    My last question is for Ms. Jones. Earlier on, Mrs. Capps, 
I think, in her opening remarks or in her response, I guess, to 
your remarks, was quite critical of the California experience, 
and I wondered if you had any response to what she said. If you 
do not, that is fine, too, but I just wondered if you did, then 
here is a chance to make it.
    Ms. Jones. I am sorry. I do not quite understand your 
question.
    Mr. Tancredo. Mrs. Capps earlier on, Representative Capps, 
as I understand it, was quite critical of the way that the 
program operates in California.
    Ms. Jones. OK.
    Mr. Tancredo. I am just wondering what your response was, 
if any.
    Ms. Jones. Well, my response is that I have seen changes in 
the program. There are a lot of things to accomplish and things 
do not happen overnight. The collected fees are going to be 
able to accomplish all these improvements, especially in, you 
know, the National Forests. In my community, there are still a 
lot of things that we have to accomplish, and I do not know how 
we are going to do that.
    Mr. Tancredo. All right. Mr. Inslee, your panel.
    Mr. Inslee. Thank you.
    Just to report to the Forest Service, I was just up on 
Mount Townsend in the Olympic National Forest, and I want to 
tell you, it is a beautiful place you got there. And to those 
who say these places are not enjoyed by anybody elitist, it is 
a 3,000-foot climb. When I got to the top, there was a 77-year-
old guy and a 78-year-old guy who had beat me up the mountain. 
So I just wanted----
    Mr. Holland. In a helicopter.
    [Laughter.]
    Mr. Inslee. It was not a helicopter. No, they scooted. They 
are tough sons of guns. Anyway, thanks for Mount Townsend.
    Mr. Holland, what is kind of the payback, grossly stated, 
as far as return on investment, in other words, the cost of 
collection vis-a-vis the net revenues for this program for you? 
And I am not sure how the appropriation money fits into paying 
the cost of collection, but whoever is paying it, can you tell 
us what the net return is on this?
    Mr. Holland. I would be happy to line out some of those 
figures for you. If we look at the budget for 2002, we had $390 
million nationally for the Recreation, Heritage, and Wilderness 
Programs in the Nation for the Forest Service. We collected 
within the fee demo context about $38 or $37.7 million. And as 
has been mentioned by others here, that cost of collection was 
about 18 percent, which, depending on how you counted it--one 
said that it was about $10 million--we had about $1 million in 
direct costs for collection, and then we made an active choice 
going into this program that indirect costs, which fits with 
the accounting guidelines we have, would not be part of this, 
and that was to say, sir, that we would not take the indirect 
costs for the agency out of the fee program to ensure that we 
got the fees to the ground.
    Now, we are looking at, based on the GAO report, some ways 
of how we account for that in total. So I would say it is not a 
dollar-for-dollar cost. It was a definite benefit.
    Mr. Inslee. So your overhead is about what percentage of 
your gross?
    Mr. Holland. Collection costs are 18 percent the first 
couple of years. They were 16 percent, actually, this year, and 
there are some efficiencies. Operating costs starting up a 
program were a little bit more.
    Mr. Inslee. So when you figure in the indirect, it will 
maybe raise that to 22 or 24 or something? Or you do not know?
    Mr. Holland. I do not know. I could not answer that at this 
time.
    Mr. Inslee. OK. If you were going to figure out the--
compare these revenues to the subsidies for resource extraction 
that we have, various subsidies to the extent they still exist 
for road building--have you ever done that kind of comparison?
    Mr. Holland. No, sir.
    Mr. Inslee. Any idea what those subsidies would be at all?
    Mr. Holland. No, sir.
    Mr. Inslee. Does the GAO have any--have they ever looked at 
that issue?
    Mr. Hill. No, we have not.
    Mr. Inslee. OK. Do I understand, if this continues, would 
the Forest Service look forward to at some point a universal 
pass system for all Federal lands, at least non-Park Service 
lands? Is that a goal that you would intend having?
    Mr. Holland. Yes, actually, we are exploring that. There 
are maybe two pieces to that. One is right now with the 
interagency working group on this, we have the Golden Passes 
that are being applied across all the lands now as well as 
looking at some form of national pass, and certainly that has 
been what the public has asked for.
    In Idaho, with the VIP Pass, we are exploring that and 
actually using it, and also in Oregon and Washington, looking 
at some opportunities there right now with the State.
    Mr. Inslee. And we have heard testimony about, at least 
anecdotally, people seem to be more understanding of charges 
for the Park Service than the Forest Service. Do you believe 
that is the case? And if so, why do you think that is?
    Mr. Holland. I think that may be true to some extent. If 
you look at it historically, the Park Service has had a fee 
structure, and BLM, Forest Service, Fish and Wildlife Service 
have not. So it is a change from where we were over the last 7 
years.
    Mr. Inslee. And what do you think ought to be the 
parameters on these fees? In other words, if this is given 
permanent status, should there be statutory maximums for 
certain uses? Should there be a statutory maximum as a 
percentage of the budget? How do we keep this monster in its 
cage? Not to give you any prejudices that I share.
    Mr. Holland. No, sir. Maybe I will answer that a little bit 
indirectly to start with. You know, we went into this as a 
demonstration project to try a variety of things, as Mr. 
Thompson referred to. We have had some lessons learned in that 
for sure, and we have done some things out there that have not 
worked as well. That was part of that demonstration package. 
This January we will implement what we call the fee Blueprint 
for the Forest Service. That Blueprint is really a statement of 
lessons learned, areas that we should not be charging fees in, 
areas where we can charge enhanced fees. And it is spelled out 
in that Blueprint.
    But I think the importance in there is that with the fee 
program and the implementation on the ground, that is done with 
local communities. Projects are agreed on with local 
communities about where those dollars will go. I think that may 
more aptly set the context for whatever the fee might be 
because that has been put on the table with local folks.
    Mr. Inslee. And why should we justify that? Why should we 
justify using this special pot of money because there is a 
special deal with the local community when the whole backlog is 
so enormous for the Forest Service? How can you justify that 
from a policy standpoint?
    Mr. Holland. I am sorry. I did not hear the part about the 
backlog.
    Mr. Inslee. How can we justify--my vision of what you are 
describing is that the local Forest Service sort of makes an 
arrangement with the community to do X, Y, or Z special 
project, you know, in their special neck of the woods, which is 
great and I can understand the appeal of that, and everybody 
understands then there is a more possessory aspect of the whole 
project. But how do you justify that when you have got these 
enormous backlogs nationally? If you are going to generate 
revenues, why shouldn't it be for the whole national system 
that has so seriously fallen apart?
    Mr. Holland. I think the way I would answer that is in 
setting a user fee, which really taxes--it gets back a little 
bit to the taxation question. Taxes that go into the general 
revenue and come back through appropriations to the Forest 
Service pay for a certain of things getting taken care of. And 
fee demo was an opportunity to look at how we might enhance 
that and would fees work to enhance that. And looking at the 
Blueprint and where we put those fees, it is where services are 
being asked for by the users.
    In that context, I think keeping that local and keeping it 
meaningful to those places is probably a better answer. And at 
the same time, a good portion, based on what local users have 
asked for, has gone to deferred maintenance and annual 
maintenance, as well as, you know, enhances customer services 
that they want to see.
    Mr. Inslee. You perhaps have covered this, but how does it 
work? Like in the Olympic Forest right now, let's say Mount 
Townsend, if the local forest wanted to say we are going to 
stair-step the switchbacks because we have got erosion up 
there, and we want to stair-step this and it is going to cost 
$100,000, is there a provision right now for the Forest Service 
to create a specific user fee for that trail for that project? 
If so, how would they do it?
    Mr. Holland. I do not think it would work quite that way. 
Could they use money that they took in on a fee for that? And I 
am not familiar, sir, with Mount Townsend specifically and what 
is going on there. But for the purposes of the discussion----
    Mr. Inslee. Well, it is lucky. The trail is in really good 
shape.
    Mr. Holland. But let's talk about that and say for that 
area there are enhanced facilities under our Blueprint. If it 
was just a trail head and it went to the top of Mount Townsend, 
it would have to have at least three minimum major improvements 
to make it even viable to have a discussion about fees on 
there. It cannot just be any trail head. So it would have to 
have something like a restroom facility, an enhanced restroom 
facility--you know, I do not know if horses are used there--
hitching posts, and a couple of--at least three major 
improvements that already existed to warrant putting a fee in 
there. So there are guidelines on how that would go.
    If they were all there and the community said or the local 
users said that is our biggest priority, and we were already 
collecting fees there, we would like to see that get done as 
the first or second priority, that would get on the list that 
way.
    Mr. Inslee. Thank you.
    Mr. Tancredo. Mr. Pearce, do you have any questions?
    Mr. Pearce. No. Thank you.
    Mr. Tancredo. OK. I want to thank the witnesses for their 
insights and the members for their questions. Members of the 
Subcommittee may have some additional questions for the 
witnesses, and we ask you to respond to them in writing. The 
hearing record will be held open for 10 days for the responses.
    I again want to thank you very much for your patience and 
for wading through this process with us. And if there is no 
other business, the Committee is adjourned.
    [Whereupon, at 3:47 p.m., the Subcommittee was adjourned.]


</pre></body></html>
